<html>
<title> - LEGISLATION TO ESTABLISH A DEPARTMENT OF NATIONAL HOMELAND SECURITY AND A WHITE HOUSE OFFICE TO COMBAT TERRORISM</title>
<body><pre>[Senate Hearing 107-472]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-472
 
LEGISLATION TO ESTABLISH A DEPARTMENT OF NATIONAL HOMELAND SECURITY AND 
                A WHITE HOUSE OFFICE TO COMBAT TERRORISM
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2002
                               __________

      Printed for the use of the Committee on Governmental Affairs





                     U.S. GOVERNMENT PRINTING OFFICE
79-889                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Holly A. Idelson, Counsel
            Michael L. Alexander, Professional Staff Member
              Richard A. Hertling, Minority Staff Director
          Jayson P. Roehl, Minority Professional Staff Member
        Morgan P. Munchnick, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk








                            C O N T E N T S

                                 ------                                

Opening statement:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     3
    Senator Collins..............................................     5
    Senator Voinovich............................................     6
    Senator Akaka................................................    15
    Senator Levin................................................    35

                               WITNESSES
                        Thursday, April 11, 2002

Hon. Arlen Specter, a U.S. Senator from the State of Pennsylvania     8
Hon. Bob Graham, a U.S. Senator from the State of Florida........     9
Hon. Judd Gregg, a U.S. Senator from the State of New Hampshire..    12
Hon. Jane Harman, a Representative in Congress from the State of 
  California.....................................................    13
Hon. Ellen O. Tauscher, a Representative in Congress from the 
  State of California............................................    16
Hon. William ``Mac'' Thornberry, a Representative in Congress 
  from the State of Texas........................................    17
Hon. Warren B. Rudman, Co-Chair, U.S. Commission on National 
  Security in the 21st Century...................................    19
Hon. David M. Walker, Comptroller General, U.S. General 
  Accounting Office..............................................    22
Hon. Mitchell E. Daniels, Jr., Director, Office of Management and 
  Budget.........................................................    31
Dr. Philip Anderson, Senior Fellow and Director, Homeland 
  Security Initiative, Center for Strategic and International 
  Studies........................................................    40
I.M. ``Mac'' Destler, Center for International and Security 
  Studies and Professor, School of Public Affairs, University of 
  Maryland.......................................................    42
Stephen M. Gross, Chairman, Border Trade Alliance................    44
Dr. Elaine Kamarck, John F. Kennedy School of Government, Harvard 
  University.....................................................    47
Paul C. Light, Vice President and Director, Governmental Studies 
  Program, The Brookings Institute...............................    49

                     Alphabetical List of Witnesses

Anderson, Dr. Philip:
    Testimony....................................................    40
    Prepared statement...........................................    98
Daniels, Hon. Mitchell E., Jr.:
    Testimony....................................................    31
    Prepared statement...........................................    94
Destler, I.M. ``Mac'':
    Testimony....................................................    42
    Prepared statement of Messrs. Daalder and Destler............   108
Graham, Hon. Bob:
    Testimony....................................................     9
    Prepared statement...........................................    66
Gregg, Hon. Judd:
    Testimony....................................................    12
Gross, Stephen M.:
    Testimony....................................................    44
    Prepared statement...........................................   114
Harman, Hon. Jane:
    Testimony....................................................    13
    Prepared statement...........................................    70
Kamarck, Dr. Elaine:
    Testimony....................................................    47
    Prepared statement...........................................   120
Light, Paul C.:
    Testimony....................................................    49
    Prepared statement...........................................   127
Rudman, Hon. Warren B.:
    Testimony....................................................    19
Specter, Hon. Arlen:
    Testimony....................................................     8
    Prepared statement...........................................    59
Tauscher, Hon. Ellen O.:
    Testimony....................................................    16
    Prepared statement...........................................    73
Thornberry, Hon. William ``Mac'':
    Testimony....................................................    17
    Prepared statement...........................................    75
Walker, Hon. David M.:
    Testimony....................................................    22
    Prepared statement...........................................    77

                                Appendix

Organization Chart (submitted by Congresswoman Harman)...........    72
Letter from Dr. Steve Koonin, Provost, California Institute of 
  Technology, dated April 11, 2002, to Senator Lieberman.........   134

Questions for the Record from Senator Lieberman and Responses 
  from:
    Dr. Anderson.................................................   135
    Mr. Daniels..................................................   137
    Mr. Destler..................................................   140
    Mr. Light....................................................   141











LEGISLATION TO ESTABLISH A DEPARTMENT OF NATIONAL HOMELAND SECURITY AND 
                A WHITE HOUSE OFFICE TO COMBAT TERRORISM

                              ----------                              


                        THURSDAY, APRIL 11, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:01 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Thompson, Collins, Voinovich, 
Akaka, and Levin.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning and thanks to all of you, including, of course, my 
colleagues from the Senate and the House for being here today.
    This Governmental Affairs Committee hearing will consider 
legislation introduced by Senator Specter, Senator Graham, and 
myself to organize the Federal Government so that it can better 
prevent, effectively prepare for, and quickly respond to 
terrorist attacks made against American citizens on American 
territory. This is a follow-up to two hearings we held last 
fall on whether the Government and specifically the Executive 
Branch is adequately organized to meet the type of security 
threats we must, unfortunately, expect after September 11.
    Given President Bush's decision last fall to establish an 
Office of Homeland Security and appoint former Governor Tom 
Ridge to head it, it seems to me that it is clear that proper 
structures and mechanisms were not in place on September 11 to 
adequately protect our homeland, and the President's action 
since then makes that clear.
    But today, we have got to ask--6 months after Governor 
Ridge's appointment--whether we are adequately positioned to 
defend ourselves against another terrorist attack within our 
borders. Are the gaps in our security policies closing? Are 
dozens of agencies with a role in protecting the American 
people against terrorism better coordinating their activities? 
Has duplication of efforts diminished?
    Governor Ridge, I am confident, has done everything within 
his power to make this Nation safer. For example, he has helped 
to boost the administration's homeland security budget and he 
has implemented a new warning system. But from my point of 
view, this is not enough, and the reason is that Governor Ridge 
and the office he heads lack the necessary authority to 
overcome the bureaucratic obstacles that always get in the way 
of major change in how the government conducts its business.
    I will say also in this regard that the administration's 
refusal to allow Governor Ridge to testify publicly before this 
and other Congressional committees on his activities makes our 
work this morning more difficult than it should be, and 
incidentally, we did request Governor Ridge's appearance here 
and got the same kind of letter that Senator Byrd and Senator 
Stevens got. The governor is on the House side today, although 
speaking behind closed doors with the Government Reform 
Committee.
    But given the effect his work has on the lives of every 
man, woman, and child living within our borders, it seems to me 
that Governor Ridge needs to work with Congress and the public 
in the way government officials with the authority he has have 
been doing for decades, indeed, for centuries, which is to come 
before a public hearing and testify and have a transcript 
available for Congressional and public review to describe what 
he is doing, to flesh out his successes, to speak to his 
difficulties, in short, to be accountable, and he must do this 
from a position of strength and authority. America's war 
against terrorism cannot be allowed to get mired in domestic 
wars over bureaucratic turf.
    So the bottom line, as I see it, is that if statutory and 
budget authority are not conferred upon a Director of Homeland 
Security, the homeland defense of this Nation will be less than 
it must be. Governor Ridge and his successors need to 
centralize their authority so our anti-terrorism policies are 
clear, consistent, and comprehensive. They need the power, 
frankly, to knock heads, to overcome bureaucratic resistance, 
to eliminate wasteful duplication of effort, and to target 
precious resources, and they need control over the budgets of 
agencies they are charged with overseeing so those agencies 
will do what the director concludes in the national interest 
needs to be done. Together, that kind of authority will give a 
new agency the muscle necessary to compete with thousands of 
other demands for public money and attention.
    Last October, Senator Specter and I introduced legislation 
to establish such a cabinet-level Department of National 
Homeland Security led by a presidentially appointed, Senate 
confirmed secretary who would be a member of the National 
Security Council, accountable not just to the President but to 
Congress and to the public.
    We recognize that no matter how robust a department of this 
kind may be, it will not include every agency that plays a role 
in homeland security. But the bill we will discuss today does 
contain a number of improvements over our earlier version. The 
most significant changes are a requirement for a national 
strategy to combat terrorism and the establishment of a White 
House office to coordinate that strategy, as originally 
proposed by our colleague, Senator Bob Graham of Florida.
    These key improvements underscore the seriousness with 
which we regard the job of protecting the American public and 
they speak to the public's desire, indeed, the public's need 
for the best protection we can provide them. On an operational 
level, these improvements also allow for the government to 
coordinate anti-terrorism activities of the military and 
intelligence communities, which would be beyond the purview of 
the cabinet-level department that we are talking about.
    With this combined approach, I think we address the need to 
permanently restructure homeland security functions under a 
cabinet-level secretary who has operational authority and the 
ability to personally direct the government-wide plan. At the 
same time, we provide for the level of coordination with other 
Federal agencies and budget certification authority that can 
most effectively be implemented from the White House.
    Now, the formation of a Department of Homeland Security 
obviously requires a major restructuring of the Federal 
Government's public safety-related responsibilities. I know 
this will not be easy. History tells us that. There will be 
resistance, and it seems somehow appropriate--I hope no one 
takes offense--that I quote Machiavelli here, who said--Senator 
Rudman, it is just coincidental I raised my head when I 
mentioned Machiavelli---- [Laughter.]
    Chairman Lieberman [continuing]. Because you carry some of 
his wisdom. Anyway, he once said, ``There is nothing more 
difficult to plan, more doubtful of success, nor more dangerous 
to manage than the creation of a new system,'' and so it is.
    But a restructuring of the kind we envision here is now 
critically necessary. In fact, in previous periods of crisis, 
such as the one we are in now, we have undertaken bold 
organizational change. I think of General Marshall's 
transformation of the Army, which helped win World War II, or 
the National Security Act of 1947 that created the CIA and the 
Department of Defense at the outset of the Cold War, and more 
recently the Goldwater-Nickles Act of 1986 in streamlining the 
military command helped us to prosecute the Persian Gulf War 
and so much else we have done militarily since the 1990's. We 
need such a change now to help us fight and win the war against 
terrorism at home and abroad.
    I thank the distinguished group of witnesses who will come 
before us today and I look very much to their help and their 
testimony. Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you, Mr. Chairman. I suppose we 
know now when we hear that question about who is your favorite 
political philosopher.
    Chairman Lieberman. Usually, I say it is either Machiavelli 
or Fred Thompson. [Laughter.]
    Senator Thompson. The hearing today is an important one, 
Mr. Chairman, and I appreciate your leadership in this area. 
This issue is of concern to all of us, as well as the 
leadership of our panelists today, all of whom have made 
substantial contributions toward trying to address the leading 
problem facing our country today.
    Just to frame the issues a little bit as I see it, it looks 
to me like we are going to address the question of whether or 
not, essentially, we need a new entity of some kind--a new lead 
entity as opposed to a coordinating function. Frankly, I think 
there can be cases made on both sides. I think a new entity 
such as you suggest makes a lot of sense in a lot of ways, but 
as you pointed out, there are going to be some very important 
terrorist fighting entities that will not be under this 
umbrella. What we do with Justice and the CIA and the FBI and 
all of that is a big question.
    I think that is why it should be understandable that the 
administration is taking some time to come up with its own 
plan. As I understand it, its strategic plan is going to be 
forthcoming this summer. I am reminded of Barry McCaffrey. When 
General McCaffrey was here testifying some months ago, he 
said--I forget the number of years he used now, but he said it 
would be several years, as I recall, in his opinion, before we 
had a good feel on exactly what we needed and which direction 
that we needed to go in. He suggested we be careful as we 
proceed and not assume that we have the answers to all the 
questions. I think today will help us get a better 
understanding of what those answers are.
    We are faced with the question of whether or not it ought 
to be statutory. I think the administration has and will make 
its case today with regard to that issue. I must say that it 
appears that the job that Governor Ridge has is turning into 
more of an operational one and certainly more of a public one 
than some of the other entities, comparable entities, such as 
the NSC.
    A separate question is the reorganization, consolidation 
and integration of the various agencies. As we know, we have 40 
or 50 agencies now involved. I think most people realize that 
we cannot continue on with Customs being in Treasury, INS being 
in Justice, the Coast Guard being in Transportation.
    It is extremely difficult to make modest changes and get 
them through Congress when jurisdiction is involved. We, in 
Congress, have not much to be proud about in terms of our own 
situation. We have 10 committees now involved conducting 
oversight on this issue. How do we expect this to all come 
about smoothly when we have that kind of situation? We have got 
jurisdiction anomalies out our ears. The Banking Committee now 
has the Export Administration Authority. The consideration of 
dual-use items that can be used for military purposes is 
considered by that committee. About the only committee that 
does not have national security implications has that 
particular piece.
    So we have a lot of work to do on our side. It occurs to me 
that reorganization is essentially a Congressional problem. The 
President cannot do this by executive order if he wanted to. We 
must be the ones that do it. If it is done, it is a challenge 
before us. But nothing is going to get done unless we have 
strong Presidential leadership. I think it is going to take 
everybody pulling together to make even modest changes in terms 
of reorganization. It is a massive job and probably much more 
of an important one than the particular title we give the 
person who brings all this together.
    It occurs to me that how we change this set-up, if we 
change it, when we change it, is very important, but 
unfortunately, like so many other areas, Presidential 
leadership is the vital part of any change that we make. 
Without it, it does not matter what we do. With it, it almost 
does not matter what we do, quite frankly. It is rightly at his 
doorstep and he is going to have to provide the leadership and 
take the responsibility and have the accountability, and I 
think he is doing that.
    Can it be done in a better way? Perhaps, but I think we 
need to face up to the fact that to have any changes, we are 
going to have to work together with the White House to get them 
done. To have any real results, we are going to have to do it 
under the President's leadership.
    I have been of the mind that we should keep open minds 
about how we should proceed and what we need to wind up with 
ultimately. I still feel that way. The national strategy is 
due, I believe, in July. I would like to see what the 
administration comes up with.
    I believe that because the job is so important, is so 
complex, as General McCaffrey pointed out, that we need to give 
the administration a fair shot at coming forth with how they 
feel it ought to be done and see how that flies, what it looks 
like, and, to the extent we can, see how it is working before 
we launch off into anything that would be extremely specific in 
the reorganizing or the reshuffling of the boxes. I am still of 
that mind, but I definitely think that we have got to continue 
to take a look at this as we go along. Just as we do not have 
all the answers, the administration should acknowledge that it 
does not necessarily have all the answers, either.
    We just need to continue down this road together and I 
think that this hearing today is a good first step in that 
direction. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Thompson. I agree 
totally with you that this is only going to get done if 
Congress is working together with the White House. We start off 
from different positions. This is not a partisan matter, as the 
range of our colleagues before us indicates very clearly.
    I think, as maybe Senator Rudman said earlier on in one of 
our discussions, that time will show the necessity of 
coordination in this critical governmental function. In fact, 
in some ways, it is already happening. In some ways, it has 
already begun with some recommendations Governor Ridge has 
made. Of course, I feel the sooner the better, and hopefully, 
we can work together to make that happen.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing to evaluate legislative 
options to strengthen our homeland security. It is my judgment 
that we do need to have a statutory basis for the office to 
clarify the lines of authority. I am very interested in not 
only the legislation that you and Senator Specter have 
introduced, but also the other proposals before us, and in 
particular, the legislation that Senator Graham has introduced.
    I look forward to hearing from all of our witnesses on the 
best way to ensure that the Director of Homeland Security has 
adequate authority, budget resources, and the clear authority 
to accomplish this overwhelmingly important mission. Thank you.
    [The prepared statement of Senator Collins follows:]
                  OPENING STATEMENT OF SENATOR COLLINS
    Mr. Chairman, thank you for convening this hearing. Our purpose--to 
examine legislative options to strengthen homeland security--is of 
utmost importance, and we have a range of distinguished witnesses to 
help us in this critical endeavor.
    Since September 11, much has been done. This Committee alone has 
held 17 related hearings, and other committees have held scores more. 
Congress has authorized the expenditure of tens of billions of dollars, 
and the administration has created an Office of Homeland Security and 
proposed tens of billions of dollars in additional spending.
    But much more needs to be done. Seven months have passed--to the 
day--and we still have not made our Nation as secure as it can and 
should be. We have not, for example, provided much-needed resources to 
our first line of defense--the first responders in our States and 
localities. To make our Nation more secure by strengthening our first 
line of defense, I introduced on Tuesday the Securing Our States--or 
S.O.S.--Act.
    Spread across the Nation are nearly two million ``soldiers'' in the 
battle against terrorism who are always on the front lines when 
disaster strikes. Properly trained and equipped, these State and local 
police, firefighters, emergency medical professionals and others have 
the greatest potential to save lives and limit casualties after a 
terrorist attack. Even the best prepared States and localities do not 
possess adequate resources to respond to the full range of terrorist 
threats we face.
    The S.O.S. Act, which is consistent with the ``First Responders'' 
proposal in President Bush's 2003 Budget, will help by providing $4 
billion in critically needed funding--an increase of more than 1,000 
percent in Federal resources. This bill is designed to achieve four 
objectives: (1) provide adequate resources; (2) ensure flexibility for 
States and localities; (3) enhance simplicity and speed in dispersing 
Federal assistance; and (4) improve cooperation across the Nation so 
that the local, State, Federal, and volunteer network can operate 
together effectively. The benefits of the Securing Our States Act are 
immediate and widespread--making the Nation safer from terrorist 
attacks while also bolstering everyday response capabilities.
    Seven months after the tragic attacks, and 6 months after the 
anthrax attacks on the office complex in which we sit, Congress still 
has not acted with sufficient urgency to protect our Nation against 
bioterrorism and threats to the safety of the food we eat. I am 
encouraged by the Senate's unanimous passage in December of the 
Bioterrorism Preparedness Act of 2001 (S. 1765). That bill, which I 
cosponsored, calls for improving food safety and protecting against 
agricultural bioterrorism; upgrading Federal capacities to respond to 
bioterrorism; providing grants to hospitals, and State and local 
officials for first-line response; and developing new treatments, 
vaccines, and diagnostic tools. I am hopeful that it will soon come out 
of the Conference Committee.
    These and other unmet needs tell me that there is still much work 
to be done. But probably the most important work yet to be done is in 
re-organizing the Federal Government to provide the best possible 
security for our homeland. This is a large and complex task. We must 
improve coordination between Federal, State, and local governments, as 
well as the private sector. We must have adequate funding. We must 
avoid wasteful duplication. We must have realistic plans and effective 
training and exercises. We must also ensure that appropriate 
information about the presence of terrorists and potential threats is 
shared by Federal law enforcement agencies with their State and local 
counterparts.
    Still, the magnitude and complexity of the task ought not cause us 
to avoid it. The Nation could not and should not permit Congress for 
any reason to shirk its responsibilities to re-organize the Federal 
Government promptly. Nevertheless, the importance of the task is so 
great that we cannot be permitted to rush to a judgment we will later 
regret. We must get this one right. We must carefully examine whether 
the bills that are the focus of this hearing do that. In this regard, 
this hearing and the testimony of our distinguished witnesses will be 
very helpful, and I look forward to hearing from them. We have a lot of 
work to do--together.

    Chairman Lieberman. Thank you, Senator Collins. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. I would like to 
thank you for holding this hearing to discuss establishing a 
Department of Homeland Security and a National Office for 
Combating Terrorism. I would also like to thank our witnesses 
for being here today.
    Mr. Chairman, it is clear to me that our country must 
examine the organization of our Federal Government from a new 
perspective following September 11. We must make certain that 
the Nation has effective, accountable organizations and systems 
in place to protect Americans from future terrorist attacks.
    We began this effort in the immediate aftermath of the 
attacks, and I believe it is productive that we continue these 
discussions today. We had a hearing, 5 or 6 months ago on the 
same subject.
    Recently, FEMA Director Joe Allbaugh appeared before the 
Environment and Public Works Committee to discuss the 
President's budget for the First Responder Initiative, which he 
is going to be charged with. I mentioned to him that I was 
worried about some of the news relayed to me by local officials 
in Dayton, Ohio who were part of a first responder team at 
Ground Zero. They were unable to get information about the 
environmental hazards that they encountered there and also the 
fact that they were unable to get the paperwork that they 
needed to make an application to take advantage of the Federal 
Workers' Compensation Program.
    The issue today before us is: How do we best solve these 
problems? There have been serious discussions about making long 
overdue improvements in our governmental institutions across 
the country, from the White House, and Federal agencies in 
Washington, DC, to State houses and city councils across 
America. The point I am making here, Mr. Chairman, is we need 
to understand that there are a lot of challenges that we have 
out there, and we are talking about a new agency and we are 
talking about coordination. But the fact of the matter is that 
the agencies that are charged with important responsibilities 
do not have the personnel and the quality of people to 
accomplish their missions. I think that has to be something 
that we need to concentrate our attention on. These problems 
are a direct result of the Federal Government's human capital 
challenges.
    As a recent article in The Washington Post highlighted, at 
the Immigration and Naturalization Service, there are only 
2,000 agents to enforce the immigration laws inside the U.S. 
Borders.
    I mentioned Joe Allbaugh and FEMA. I asked him about the 
condition of his workforce and I think his response is 
indicative of a widespread problem in the Federal Government. 
He said, and I think this is really important, ``I have been in 
this position about a year, and it was clear to me right up 
front that we have not been spending enough time internally on 
our employees. Retention was a problem, and there was 
essentially no recruitment. I think over the next 18 months, 
somewhere between 45 and 50 percent of our agency is eligible 
for retirement. That is just a lot of gray matter to be walking 
out the door. Since September 11, the retirements have 
accelerated. People have come to my office with a different 
perspective on life, which I cannot fault them for, wanting to 
spend more time with their kids, grandkids, their spouses.''
    ``FEMA suffers from its own successes in that if you want a 
job done, you give it to FEMA, and oftentimes we are given 
tasks to perform but not necessarily the resources to complete 
the task. So as a result, many of our people in not only the 
Washington headquarters but in our 10 regional offices wear 
two, three, four, and five hats at the same time and I think it 
puts an inordinate amount of stress on those individuals, on 
their families, who I think make the ultimate sacrifices 
because those individuals are kept away from home more than 
necessary.''
    So what I am saying, Mr. Chairman, is that I think 
improving the Federal Government's strategic management of 
human capital is the most important action we can take to 
better prepare our Nation against future threats to our 
national and homeland security and it is critical that we 
address the problem as we consider legislation before the 
Committee today.
    You can coordinate all you want to, but if the agencies you 
are coordinating don't have sufficient personnel, they are not 
going to be able to get the job done, and I think too often we 
concentrate on form and procedure and neglect the most 
important thing that we need to have in the Federal Government 
and that is people. You win with people.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Voinovich. Right on.
    We are very grateful for the presence of this group of 
Members of both chambers, both parties here today, who have 
been involved in this and we look forward to your testimony.
    I think Senator Specter has an engagement he has to go to. 
I think he is also, if I am looking for an excuse to call on 
him first, he is clearly the most senior member before the 
Committee, so I would call on Senator Specter now.

  TESTIMONY OF HON. ARLEN SPECTER,\1\ A U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Specter. Thank you very much, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Specter appears in the 
Appendix on page 59.
---------------------------------------------------------------------------
    Chairman Lieberman. Excuse me. Senator Akaka, do you have 
an opening statement? You snuck in behind me quickly.
    Senator Akaka. I will do it afterward.
    Chairman Lieberman. OK, fine. Go ahead, Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. The 
Appropriations Committee is in the midst of 2 days of hearings 
on homeland security and I am due there shortly, so I 
appreciate your calling on me at this time.
    I believe that it is very important for this Committee to 
move as promptly as possible to structure a bill. The hearing 
on S. 1534 was on October 12 and this is a matter of 
considerable urgency.
    I think that Senator Thompson is correct that there has to 
be input from the White House. It has to be an agreed-upon 
format. But I believe that is likely to come once the 
legislative process moves forward.
    I served on this Committee for 4 years and I know its 
capability to take the legislation which has been introduced in 
a variety of sources and to move it into a bill, and when that 
starts to happen, there is going to be input from the White 
House. But I think we have no time to spare to do everything we 
can to structure homeland security in the most effective way 
possible.
    I am glad to see Senator Graham's addition to the bill on a 
counterterrorism czar. I know from my service as chairman of 
the Intelligence Committee in the 104th Congress that there 
needs to be a revision in intelligence gathering, reporting, 
and coordination.
    I am glad to hear the reference to Machiavelli, Mr. 
Chairman. I am glad to see one more cosponsor on the list. It 
should materially improve chances of passage. When you said 
Senator Thompson and Machiavelli were your two favorite 
political philosophers, I expected Senator Thompson to reply he 
did not see much difference in making alternative----
    Senator Thompson. I am sorry I brought this up.
    Senator Specter [continuing]. Alternative choices.
    The job which Governor Ridge faces is a very daunting 
responsibility and he is a man of terrific ability, which I 
know, having worked with him very closely for more than two 
decades, 12 years in the House and 6\1/2\ years as governor. 
When he says that he can walk down the hall and get matters 
resolved with the President and no one will say no to the 
President, I agree, no one is going to say no to the President. 
But it is pretty hard to walk down the hall every time there is 
a controversy, and we are talking about an institution. It may 
be that the next Director of Homeland Security will not have 
the very close relationship which Governor Ridge enjoys with 
the President.
    We are now seeing a battle of separation of powers with the 
position taken by the administration on having Governor Ridge 
not testify before the Congress, and I believe that dispute 
would be obviated if the Congress acts to create a cabinet-
level position. Then there would be no doubt about it.
    My own view is that when you have as much responsibility as 
the Director of Homeland Security has and you have a say on $37 
billion, that you really have a de facto cabinet officer. This 
is not like the National Security Adviser, who was created by 
statute and by Congressional enactment in 1947, so that the 
analogy to Dr. Condoleeza Rice, I think is not apt. The sooner 
we move on to have a structure here, I think the better off we 
will be.
    My yellow light is on and you have a long list of witnesses 
and I am going to observe the time meticulously, but in 
closing, I would emphasize the need for early action. September 
11 has had a 6-month anniversary. S. 1534, which you and I 
introduced months ago, had a hearing on October 12. In my view, 
the sooner this Committee acts, the sooner we will get the ball 
rolling and I think we can work out an accommodation with the 
White House. Thank you very much.
    Chairman Lieberman. Thank you very much, Senator Specter. I 
agree with you, and as soon as we feel we can bring it to 
markup, we will, and I hope that is real soon. Senator Graham.

TESTIMONY OF HON. BOB GRAHAM,\1\ A U.S. SENATOR FROM THE STATE 
                           OF FLORIDA

    Senator Graham. Thank you, Mr. Chairman. I, too, appreciate 
your holding this hearing on an important topic and I believe 
that this is the time to begin serious consideration of the 
role of Congress in the Office of Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Graham appears in the 
Appendix on page 66.
---------------------------------------------------------------------------
    As you know, much of this bill that is before us today is a 
product of legislation that was introduced in the fall of last 
year. We were asked by the President to defer pursuing that 
legislation in order to allow Governor Ridge to gain control of 
his responsibilities and to deal with some of the immediate 
issues that were facing him after September 11. Now, 6 months 
plus have passed. I think it is time to begin the process of 
looking to the future for this important initiative.
    The legislation which Senator Feinstein and others and I 
introduced last fall was S. 1449, and in substantial part it 
has now been incorporated as Title II in the legislation that 
is before us. This legislation has as its purpose to 
institutionalize the Office of Homeland Security and assure its 
accountability to the American people.
    To do that, the legislation would provide that the director 
of the office be appointed by the President with the advice and 
consent of the Senate. The director would develop a national 
strategy for the prevention and response to terrorism. The 
director would be required to certify all portions of the 
Federal budget relating to terrorism.
    Last November, with Paul Light, Director of Governmental 
Studies at The Brookings Institute, I co-authored an op-ed in 
The Washington Post in which we set out seven benchmarks 
against which the American people and the members of Congress 
could measure the effectiveness of the current executive order, 
Office of Homeland Security, and help us to determine if a more 
formal statutory authority was warranted. I would like to use 
my remaining time just to briefly comment on those benchmark 
standards and hope that they might be helpful to this Committee 
as it attempts to answer that question.
    The benchmarks that we identified were, first, that 
Governor Ridge needs to be first in line for information. This 
is particularly true as it relates to sensitive intelligence 
information that would require action which had as its 
objective to avoid a terrorist attack. We do not want to be in 
the position of constantly picking up the pieces after an 
assault, but rather to be able to avoid attacks against our 
people.
    Second, Governor Ridge needs to have access to the 
principals who will make the operational decisions for the 
appropriate agencies and he needs to have that access on a 
timely basis.
    Third, Governor Ridge needs to be a gatekeeper in the 
budget and personnel processes.
    Fourth, Governor Ridge needs a permanent staff that owes 
its loyalty to him and to him alone. This recognizes the fact 
that there are inevitably going to be conflicts between this 
Office of Homeland Security and the line agencies which have 
parts of the responsibility for implementing the plan against 
terrorism.
    Fifth, Governor Ridge needs a staff which is close to him, 
that is, not only close in terms of its loyalty but in terms of 
its physical proximity.
    Sixth, Governor Ridge needs a say in the selection of 
appointees at the agencies which will have significant 
responsibility for anti-terrorism and response to terrorism.
    And finally, seventh, Governor Ridge needs to be involved 
in all management reviews of the homeland defense 
establishment.
    Six months after listing these criteria, Mr. Light and I 
would define the results as being mixed in terms of how well 
the operation of the office stands up against these criteria. 
He clearly has access to the information needed to do his job, 
but much of the information is still muddy, its sources 
diverse, and its usefulness often mixed. Evidence of this is 
the color-coded system of vague threat warnings which the 
office has developed.
    Governor Ridge also enjoys access to key decisionmakers, 
from the President to the Vice President and Attorney General, 
which is our second criteria. But what he has not had, at least 
not yet, it appears, is success in making his case on the need 
for the kinds of changes that will be necessary to give America 
an organized homeland security presence.
    He appears to have had his greatest success in the budget 
and personnel process, our third criteria, but the governor has 
continued to argue against making his case even for this area 
of success before the Congress and he has said that he has no 
power to spend, obligate, or audit money, and for that reason 
has no obligation to come before the Congress.
    As for his staff, executive office space, and role in 
selecting key Presidential appointees, again, mixed success. He 
is still running a minimalist operation, still looking for 
office space which is proximate to his own space in the Old 
Executive Office Building. It is not clear that he has had a 
role in selecting key personnel. As an example, two 
appointments were announced recently, the nominee to be the 
Surgeon General and the Director of the Institute of Health. 
Both of these will be essential players in the fight against 
bioterrorism.
    Governor Ridge does not appear to have had much to say over 
the operations and management of the homeland security 
establishment, which was our seventh and final criteria. As the 
recent events in the INS suggest, homeland security continues 
to depend on agencies that are properly structured, staffed, 
and led, and when those criteria are not present, then we 
expose ourselves to the kind of tragedies that occurred on 
September 11.
    Mr. Chairman, I would like to ask that the balance of my 
statement be printed in the record as if read. I applaud the 
President and Governor Ridge for the progress that they have 
made, particularly under extremely challenging, difficult 
circumstances. I do not believe that what we are about here is 
a clash between the Executive and the Legislative Branches. 
What we are trying to do is to provide to the American people 
what they have every right to expect their National Government 
to do. If you read the first lines of the Constitution, it 
clearly outlines that protecting the homeland is one of the 
fundamental reasons this government was established. That is 
the importance of the business that we are about today and I 
commend you for doing so.
    Chairman Lieberman. Thank you, Senator Graham. That was 
very helpful testimony and thanks so much for working with us 
to bring our two approaches to this together. It is an honor to 
be working with you.
    Senator Graham. Thank you.
    Chairman Lieberman. Senator Gregg, thanks for being here 
this morning.

TESTIMONY OF HON. JUDD GREGG, A U.S. SENATOR FROM THE STATE OF 
                         NEW HAMPSHIRE

    Senator Gregg. Thank you, Mr. Chairman. It is a pleasure to 
be here also. I also am participating in the Appropriations 
Committee hearing on homeland security which is going on.
    I think it is appropriate to raise that, not only because 
Senator Specter headed off to it and I will be heading off to 
it soon, but because the first major witness called to that 
committee by Senator Byrd was a professor of government from 
Pennsylvania, I believe his name was Glover, and his basic 
theorem was that centralizing the decision process in the 
Homeland Security Office at the White House at a cabinet level 
was probably not the best approach to take, interestingly 
enough.
    The reasons he pointed out were the same as concerns raised 
by Senator Thompson, which are that the Centers for Excellence 
in our government for addressing terrorism are already pretty 
well established in agencies which have a line of authority 
which is never going to be able to be pulled into a central 
cabinet-level position, specifically the FBI, CIA, State 
Department, and Departments of Defense and Justice. I am not 
sure that I am fully attracted to that idea. I do think that 
there is a role for an individual who has the authority of the 
homeland security portfolio, but the question becomes what 
should that authority be and what should that individual's role 
be.
    I have spent a fair amount of time on this issue. In fact, 
as chairman of the Commerce, Science, and Transportation 
Committee for the last 4 years prior to the changeover, I held 
a number of hearings on this specific issue, which was the 
interrelationship of the different departments, and came to the 
conclusion that we do need some sort of reorganization to put 
structure into what we are doing.
    But rather than going the full step of creating a cabinet-
level position which tries to pull in homeland security but 
cannot accomplish it fully because some of the players simply 
will not be pulled in, such as the FBI, the Justice Department, 
State Department, CIA, and the Department of Defense, my 
suggestion is that we take a lesser step but one which would 
produce an efficient response to a known problem, and that is 
our borders.
    Probably no element of this entire exercise has less 
effective coordination now than the management of our borders 
in the area of protecting ourselves from terrorist actions. We 
have seen consistently breakdowns in the INS and the Border 
Patrol. We have seen overlapping responsibility and 
ineffectiveness from Customs and INS trying to work together. 
We know that agencies such as the agricultural quarantine 
efforts and the Coast Guard, which have huge responsibility in 
this area, are not being coordinated in a systematic manner 
with the other agencies, such as the Border Patrol.
    So I would like to suggest that rather than pursuing the 
course that is maybe the full effort, which has reservations to 
it, which have been outlined, that we take a look at resolving 
a problem that we know we can resolve, which is to take all the 
different Border Patrol elements of our government and put it 
into one agency and then give that cabinet status.
    Specifically, I proposed this in a bill, S. 2020, which 
takes the elements of INS, which include Border Patrol and visa 
activity and immigration activity, the full element of the 
Coast Guard, the elements of the DEA which are covered by the 
Border Patrol, the elements of the Agriculture Department which 
involve making sure that foods coming into our country are 
safe, put them under one management structure and under one 
leadership coming out of the administration which would have a 
cabinet-level status.
    I believe the practical effect of this approach would be 
that at least in one part of the question of how we protect our 
Nation, which is determining who is coming into the country and 
what they are doing when they are in the country, what products 
are coming into the country and what sort of threat is coming 
as a result of those products, at least in that one specific 
element, we would have structure and we would have coordination 
and we would have a responsible approach.
    Today, we do not have that. Unfortunately, our borders are 
porous. Our management of those borders is inefficient and the 
lines of authority are overlapping and confusing.
    So I would like to suggest that this Committee take a look, 
as it proceeds down the road of looking at your broader bill 
here, which I am sure you are going to want to mark up and 
report out, that I would like to suggest it as a parallel 
effort, that you consider taking a look at marking up a bill 
which would resolve the issue of our borders and managing the 
issue of who is coming into our country and what is coming into 
our country.
    Chairman Lieberman. Thanks very much, Senator Gregg, for a 
thoughtful statement, and I promise you we will consider that. 
It obviously omits some agencies that we are bringing into the 
larger proposal, but it is a very serious proposal that you are 
making and it touches an area of critical need and relationship 
to the problem of homeland security, so I look forward to 
working with you on it. Thanks for your time.
    I welcome three colleagues, a distinguished bipartisan 
group from the House. Thank you for being here and thank you 
for working along with us. Obviously, not only do we have to 
work with the White House to get this done, we have got to work 
with the House to get it done.
    Congresswoman Jane Harman.

TESTIMONY OF HON. JANE HARMAN,\1\ A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. It is an honor to be 
back testifying before your Committee. Hello to Members of this 
Committee. I have a formal statement for the record and hope I 
can submit it and just summarize in six quick points, because 
many good points have already been made and I am sure you do 
not need to hear them again.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Harman with an attachment appears 
in the Appendix on page 70.
---------------------------------------------------------------------------
    First point, I doubt that even Machiavelli could overcome 
the turf disputes in the Executive Branch and in Congress. With 
all of his skills, I still think they might even defeat him. In 
the current language, I have been saying that turf disputes 
have become aerosolized. You inhale them and you die. Governor 
Ridge, I think, is on life support because his office is 
inadequately funded and has inadequate tools to do the job that 
we all need him to do.
    Second point, I believe that your new legislative thrust 
that we are discussing today, the combination of two ideas, 
combines the best bipartisan ideas that we have been able to 
come up with in the House and in the Senate. I know that the 
three of us over here from the lower body have worked together, 
are prepared to work together, and eagerly want to work with 
you to fashion the best possible legislation and introduce a 
companion bill in the House at the same time that you introduce 
this bill, so that, hopefully, that will expedite its 
consideration in both bodies and its becoming law, because I do 
think we need a statute to settle these issues.
    Third point, this is the issue, not whether Governor Ridge 
should testify. That is a side show. The main show is who is 
responsible for developing and explaining the $38 billion 
homeland security budget. Whose strategy is it? Who can explain 
to Congress why we should authorize and appropriate that money? 
That is the issue. We should not be authorizing and 
appropriating money that is not justified by the Executive 
Branch and somebody needs to come up here and explain that, and 
my candidate for that would be Governor Ridge, but Governor 
Ridge with a real day job.
    Fourth point, and I am surprised this was not mentioned 
yet, but I think it is the touchstone and we should keep 
focused on it, and that is certainly those of us who serve on 
the Intelligence committees know this, and I know you know it 
as well--our country is still vulnerable to a second wave of 
major terrorist attacks. We are still vulnerable. Even though 
we have had considerable success in Afghanistan and around the 
world in rounding up terrorists, we are still vulnerable. 
Everybody understands that there are sleeper cells with al 
Qaeda members and followers in the United States, Canada, 
Europe, and so forth. We are still vulnerable. There is no more 
time left before we come up with an adequate focused homeland 
security strategy, and it is, as everyone has pointed out, 
already 7 months since September 11. It is almost 6 months 
since your first hearing of October 12 on this issue.
    Fifth point, I would just like to draw your attention to 
the chart over here.\1\ This chart was put together by the 
subcommittee on which I am ranking member, the House 
Intelligence Subcommittee on Terrorism and Homeland Security. 
It is the chart that Tom Ridge held up as his organization 
chart when he took office. I would call that the ``Where's 
Waldo'' chart. Waldo is the Office of Homeland Security near 
the top, but I bet you can barely see it. The blue lines are 
around the most major players in the Executive Branch, but 
there are a hundred little boxes on this chart. This is the 
current organization or the current disorganization that the 
Director of Homeland Security is supervising, and even if we 
reorganize our border agencies, which I support, that just 
takes a few boxes out of here. There is still the rest of it.
---------------------------------------------------------------------------
    \1\ Chart referred to by Ms. Harman appears in the Appendix on page 
72.
---------------------------------------------------------------------------
    So I would argue, and I am not sure whether I am agreeing 
with Senator Gregg or not, I was not quite sure what his view 
is, but I think I agree with everyone else up here that while 
we need to reorganize our border capacity, we also need, at 
minimum, an architect or orchestra conductor for the rest of 
it. So I think the combination of a bigger, better border 
agency, FEMA, consequence management capacity is good, but then 
look at this chart. We need the rest. And so combining these 
functions, I think is critical.
    Final point, my candidate for orchestra conductor is Tom 
Ridge. I think he brings the right skills. The problem is, he 
has the wrong tools. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Congresswoman Harman, for an 
excellent statement and very helpful.
    I want to ask my two colleagues for their indulgence. I 
missed calling on Senator Akaka. He now has to leave soon and I 
want to ask him if he would like to give his opening statement 
now.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I commend 
the Chairman for calling this hearing and thank our witnesses 
for being here. The issue of homeland security is one that 
demands all of our immediate attention.
    Homeland security presents challenges to our country in 
different ways. Our commitment to both national security and 
civil liberties is tested as we work to develop solutions that 
not only make a stronger, safer America, but a better one. We 
need to determine how we can best prevent, protect, and respond 
to threats on the homeland while preserving the freedoms that 
define America.
    The legislation we are reviewing this morning raises 
several important issues for me. Whatever strategy we undertake 
must maximize the talents of those charged with homeland 
security and provide sufficient resources to address the 
threat. There are Members on this Committee who have been 
addressing this. I recently chaired an International Security, 
Proliferation and Federal Service Subcommittee hearing where 
representatives across government testified that their agencies 
need more people with critical skills in math, science, and 
foreign languages.
    Senators Durbin, Thompson, and I have introduced the 
Homeland Security Federal Workforce Act, S. 1800, and the 
Homeland Security Education Act, S. 1799, to ensure that 
agencies have the critical people with the critical skills to 
guide the Federal agencies in their national security missions 
in the long term. Senator Voinovich is also working on this 
with us.
    Nor should union representation be a litmus test for 
patriotism of Federal workers. The administration has already 
set a precedent by eliminating certain Title 5 rights for 
Federal workers in national security positions. I am 
disappointed by the administration's recent action barring 
union representation for some 500 clerical and support 
employees at the Department of Justice. We should avoid the 
unintended consequences of a further erosion of the rights of 
Federal employees, including collective bargaining 
arrangements.
    Federal employees are already prohibited by statute from 
striking and their right to union representation does not 
constitute a national security risk. Union members are no less 
loyal than other members and Americans to their country. What 
the attacks of September 11 demonstrate is that we are all 
soldiers in the war against terrorism. Moreover, we need to be 
certain that government has enough of the right people and 
resources to carry out new homeland security missions. The 
mission and responsibilities of the proposed Department for 
National Homeland Security is greater than the sum of the 
individual missions of the agencies that make it up. Like other 
agencies, the Department of Homeland Security should have 
enough of the people and resources required to carry out its 
mission.
    The Director of the National Office for Combating Terrorism 
and the Secretary of the Department of Homeland Security will 
be charged with domestic security responsibilities. Both should 
be under civilian control with the heads of both offices 
subject to Senate confirmation.
    We should also remember that future terrorist attacks will 
affect regions of the country differently. There is no ``one 
type fits all strategy.'' Geographically distant States like 
Hawaii and rural areas require different responses and 
strategies and resources than those in New York City and 
Washington, DC.
    As we review this legislation, Mr. Chairman, we should 
consider how it can be most effective while preserving the 
principles that make America great. I wish to express my 
appreciation to our witnesses and thank them for their 
patience. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Akaka. I 
appreciate your being here.
    Congresswoman Tauscher, thank you. Good morning.

  TESTIMONY OF HON. ELLEN O. TAUSCHER,\1\ A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Tauscher. Thank you, Mr. Chairman. I appreciate being 
before you again. I thank you and Senator Thompson and the 
Committee for having us here. I also thank Senator Graham for 
his leadership in harmonizing the two bills that we had, that 
all have been working on. I thank my colleague, Jane Harman, 
for her great leadership on the Intelligence Committee, and I 
especially thank my colleague, Mac Thornberry, for his 
prescience and his foresight a year ago to introduce a House 
bill to create a homeland security agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Tauscher appears in the Appendix 
on page 73.
---------------------------------------------------------------------------
    Chairman Lieberman. Would you put Mac up there with 
Machiavelli?
    Ms. Tauscher. He is our 21st Century version of it.
    Chairman Lieberman. Maybe that is what Mac is short for. 
[Laughter.]
    Ms. Tauscher. Actually, I should probably defend him on 
that. He is a much nicer guy.
    Senator Thompson. He just likes to be called ``the Prince'' 
every once in a while. [Laughter.]
    Ms. Tauscher. I also want to thank Senator Rudman for his 
help and his friendship and working with us on this issue for 
so long.
    Mr. Chairman, I think that I would like to echo the 
phraseology of the President on another issue, the tragedy in 
the Middle East, by saying that enough is enough. I think that 
a long time has passed since the events of September 11. I 
think it is time for us to unify the government and to unify 
the purpose of the American people behind the ability to get 
something done here.
    What I am tremendously concerned about is while there is 
good work being done here and good work being done at the 
House, and obviously the President has picked a man of great 
pedigree in Governor Ridge, who I believe would be unanimously, 
perhaps, endorsed by the Senate for a cabinet-level position, 
too much time has gone by where we have not done the right 
thing for the American people to secure their safety and I 
think we have to move a bill, both here and in the House, and 
we have to create a unifying opportunity to do that. I think 
this Committee's work is going to go a long way to do that.
    I am concerned that we get something done on the Senate 
side and we do not get something done on the House side, and 
that is going to take the ability of the leadership of all of 
the different parts of the government, all equal but all 
interested in moving something, so that we can produce for the 
American people a harmonized structure that is practical, 
common sensical, that has real accountability, real budget 
authority, and the ability to do the things that we all know 
have to get done so there is no repeat of the September 11 
tragedies.
    I think it is important that we work together to make sure 
that we have a robust and muscular department structure that 
really, I think, is accountable to the American people, and 
right now we do not have that.
    So I thank you for your leadership. I thank my colleagues 
for working so well. We have got the right bill. We have the 
ability, I think, to move to compromise. What we really need 
now is leadership and we need the White House to support us, 
and the administration to support us. My colleague, Jane 
Harman, was very right to say that we cannot fritter around the 
edges here. We cannot allow petty differences of power and 
partisanship and, frankly, committee chairmanships on one side 
or the other to make these issues less able to move forward.
    So I look for your leadership to continue. I hope that we 
can do something. I certainly hope we can move a bill in the 
House if you are successful here, and I hope we get the 
leadership in the White House to get something done very soon. 
Thank you.
    Chairman Lieberman. Well said. Thank you very much.
    Congressman Thornberry, thanks for your patience.

      TESTIMONY OF HON. WILLIAM ``MAC'' THORNBERRY,\1\ A 
       REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Thornberry. Thank you, Mr. Chairman. I appreciate you 
and Members of the Committee having me back. I also appreciate 
the time and effort this Committee has put into looking at the 
issues of organizational reform. It is not very glamorous work. 
You take this chart that Ms. Harman has and rearrange the 
boxes. It just does not excite a lot of people, and yet I think 
it is important.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Thornberry appears in the 
Appendix on page 75.
---------------------------------------------------------------------------
    Senator Voinovich is exactly right. It is not a magic 
answer. We still have to include the money, we still have to 
have the people, we still have to have the technology to make, 
for example, border security work. But I think the rest of the 
story is we can continue to pour money, even double the 
homeland security budget, and if it is not focused, if it is 
not integrated, we are not going to get the most out of that 
money, and organizational reform is very important to making 
sure that it is focused and it is working the right way.
    As has been noted, the last 6 months, we have not seen a 
lot of progress. Governor Ridge has certainly had his hands 
full. I worry that we are moving toward some sort of a half-
hearted approach, maybe divide INS and take Customs and bring 
it over with the Border Patrol and say we have done what needs 
to be done, but we will not, in my view. I really think we need 
to try to get it right.
    As you know, Ms. Tauscher and I introduced a bill last year 
based on the Hart-Rudman Commission proposals to create a 
Department of Homeland Security similar to your and Senator 
Specter's bill. I think it is important to have that sort of 
department to bring together these various entities which are 
fractured all over the government. In addition to the border 
security piece, it brings together the cyber security as well 
as emergency response, kind of a beefed-up FEMA. So it tries to 
bring that together.
    I think it is also important for us to remember, and I will 
give him a little build-up before he comes up here, that the 
Hart-Rudman Commission was a panel of some of the most 
preeminent Americans dealing with the broad range of challenges 
the country faces and they spent 3 years studying this problem. 
This is not a knee-jerk reaction to September 11. This was out 
way before September 11, and 3 years of work had gone into it 
before then. So it is well thought out and we can study a 
problem to death--and I think we have to be careful of that.
    I have some improvements, I think, on my original bill, 
such as bringing in the agriculture inspectors that Senator 
Gregg talked about and some others. I think it is significant 
that we are bringing together Ms. Harman's approach with ours. 
As she said, having an orchestra leader to coordinate on a drug 
czar kind of model the wide range of government responses, but 
still having a department where the rubber meets the road, can 
make sure that the Customs Service radios actually work with 
the Border Patrol radios, and the details of implementing it is 
critical. But you have to have that direct chain of command and 
budget authority to make that happen. So I think bringing the 
two approaches together makes a lot of sense.
    Mr. Chairman, I am a little bit embarrassed to admit that I 
am familiar with that Machiavelli quote that you mentioned 
earlier and I know part of the rest of it. It goes on to talk 
about how the people who have some stake in the present system 
only see their interest threatened, and the people who may have 
a stake in the system to come do not see it as realistic enough 
to fight for the change, and so what you are left with is 
getting attacked from all sides and I think that often ends up 
happening in organizational reform.
    But every day that we fail to take on the turf battles in 
the Executive Branch and in the Legislative Branch, every day 
that goes by, we have a vulnerability that I think we have an 
obligation to try to protect, and I think we do have a 
responsibility to work with the administration, but to move it 
ahead and not continue to sit around and twiddle our thumbs and 
say, ``Oh my,'' when something else happens, because something 
else will happen.
    Thanks again for having me.
    Chairman Lieberman. Thank you, Congressman Thornberry.
    Thank you all for your leadership, and I appreciate the 
fact that you are working together as we are on this side. I 
think we have got to try to move these ideas forward and then 
engage along the way with the White House as best we can and 
hope we can have a good meeting place. But your sense of 
urgency is just right and I hope we can conduct our affairs 
through this Committee in exactly that tone. Thank you very 
much. I wish you a good day.
    We will now call the second panel, The Hon. Warren Rudman, 
Co-Chair of the U.S. Commission on National Security for the 
21st Century, and the Hon. David M. Walker, Comptroller General 
of the U.S. General Accounting Office. I thank both of you for 
being here.
    Senator Rudman, as Mr. Thornberry said, the truth is that 
the proposal from the commission you headed with former Senator 
Gary Hart is the basis and your testimony is the basis for the 
bill that Senator Specter and I put in and which was put in by 
our colleagues in the House. I am very grateful that you could 
be here today and reflect with us now, I suppose almost a year 
after your proposal was first made and now a little more than a 
half-year after the events of September 11. Good morning. Thank 
you.

 TESTIMONY OF HON. WARREN B. RUDMAN, CO-CHAIR, U.S. COMMISSION 
            ON NATIONAL SECURITY IN THE 21ST CENTURY

    Mr. Rudman. Good morning, Mr. Chairman, Senator Thompson, 
fellow New Englander Senator Collins. I am delighted to be back 
before this Committee again. I spent many hours in this room 
over a 12-year period and I am glad to see it is still in good 
hands.
    Chairman Lieberman. Thank you.
    Mr. Rudman. Rather than go through a number of points that 
I had prepared, I think it is fair to say that you all have a 
pretty good understanding of what the Hart-Rudman Commission 
did. Certainly, you have all been briefed on it. We have had a 
hearing on it. So rather than do that, I would rather speak 
very briefly about something that has occurred to me. I 
purposely got here as early as I could to hear the previous 
panel and to hear the opening statements because I wanted to 
reflect on those statements. So let me just comment briefly 
about how I am viewing this right now and how I think our 
commission would.
    There is no question but that the legislation that you 
introduced earlier this year, that Mac Thornberry introduced 
after extensive hearings in the House, and that my fellow New 
Hampshireman Judd Gregg talked about this morning was the 
single most critical thing that we thought had to be done and 
could be done in fairly short order, and that was the 
operational side of it.
    Now, it is my belief that with a President that has a 
popularity now of still better than 70 percent and a country 
that is preoccupied with future terrorist attacks, and with 
good reason, there is no excuse for not going ahead and at 
least trying to make our borders secure, which is, I believe, 
Title I of your bill. I think you have improved on the 
recommendations that Hart-Rudman made by including some other 
aspects of government that properly belong there.
    Obviously, the entire prevention piece, counterterrorism, 
the FBI, the CIA, all the other intelligence agencies will 
remain where they are and will have to have a strong link to 
what you finally do with the border agencies. But there is no 
reason, if you wanted to go to a zero-based budget today, to 
put the Coast Guard in the Transportation Department, to put 
Customs in Treasury; at least their law enforcement function--
they are no longer a big revenue-raiser, which is why they were 
there in the first place; or to put the various agencies in the 
Justice Department and also give the Justice Department the 
crisis management responsibility which they currently have in 
this government for this kind of an event. It makes no sense 
and ought to be changed.
    For those in those various services that are concerned 
about their personnel systems, their uniforms, their tradition, 
we are not saying to change that at all. The Coast Guard will 
still be the Coast Guard, and that is something that Senator 
Collins is concerned about from the State of Maine, with good 
reason. It will still be the U.S. Coast Guard. The only 
difference will be it will report to a Secretary of Homeland 
Security instead of a Secretary of Transportation.
    I want to urge you, and I have talked to my fellow 
commissioners about the testimony I would give here this 
morning, I want to stress to you that nothing is more important 
than that. If you cannot guard the border, then you cannot have 
adequate homeland security. The Lord only knows, if you block 
the Maine Border or the New Hampshire Border, it is difficult 
enough to keep it secure with what we have, but to have it in 
the shambles that it is in with these agencies not even talking 
to each other makes no sense.
    Let me also add that although we are spending a huge amount 
of money--parenthetically, I have been asked to testify before 
Appropriations this afternoon and I took a look at the budget 
numbers and they are staggering, what, $36 billion this year, 
$38 billion next year, and we are spending all this money on 
airport security, and we probably ought to. Let me submit to 
you that I think a greater threat right now to the country are 
the 50,000 containers coming into U.S. ports every single day, 
less than 1 percent being inspected, not knowing whether they 
contain biological, chemical, or nuclear devices. I mean, all 
of our attention is focused on airports and we are going to get 
maybe hit someplace else.
    So when you talk about border security, I do not think 
there is anything any more important than that and I hope, I 
would think that in a bipartisan way, it should not be hard to 
convince the White House that this is in the interest of the 
country.
    Now, the second part is more difficult and that is Title 
II. I have looked at it at some length. I have gone back and 
looked at some of the work that we did over the last 3\1/2\ 
years and I asked one of the experts that we had working to 
look at it--a group of us looked at it--and let me just read to 
you a paragraph that we put together--it is a short paragraph--
looking at Title II. This is not said in a critical way, it is 
said in a thoughtful way, but I think it will presage some of 
the problems you may have dealing with the White House and the 
National Security Council on your Title II. That is why I 
wanted to call it to your attention.
    I think that section may be a mixed blessing. Surely, it 
puts the Secretary for Homeland Security in the NSC, but it 
really transforms Ridge's office into a legal Executive Office 
of the President entity with a focus on counterterrorism that 
has some overlap with homeland security. People do not 
understand that there is a little bit of a difference between 
the two and the way they are defined within the government.
    Then you create a National Combating Terrorism and Homeland 
Security Response Council, and I think that may add a little 
confusion because, in essence, many of the suggestions from our 
commission and others said either/or, you know, either 
department-based or Executive Office of the President-based. 
You have kind of got both. You have kind of got a foot in each 
camp and I think you ought to look at that very closely.
    I think you fix the operational integration problem in the 
bill perfectly, but I think you still blur the strategic 
integration problem.
    What we proposed was that the National Homeland Security 
Agency fix the operational issues and we wanted the secretary 
or director of that to have membership on the NSC. Once you 
have that membership on the NSC, then you would integrate the 
strategic functions with the other agencies. You are doing it 
very differently.
    I would strongly recommend that you look hard at that 
section. I know it is important to Senator Graham. We talked 
about it. I am not saying it is wrong, I am simply saying that 
it could add some blurring to what has to be a much clearer 
function of how do you develop the strategy, which is what has 
been talked about by people here this morning.
    Finally, I would say that in the rest of the bill you have 
done a lot of excellent things. It is a monumental effort. When 
your staff delivered it to my office, I could not believe it. I 
figured Senator Lieberman was getting paid by the pound lately 
for legislation.
    Chairman Lieberman. I wish.
    Mr. Rudman. But I did read it. I read every line of it. I 
sent it out to our staff people. They looked at it. We think it 
is a terrific piece of legislation. We think that Title I is 
absolutely essential you get that done soon because there will 
be a lot of scapegoating the next time something happens and it 
turns out that Organization A had a watch list or their 
information technology that somehow Organization B did not have 
because they were located someplace else.
    We have seen it all. We did not make this recommendation 
lightly. After all, we made this recommendation in 1999. That 
is the first time we made the recommendation, as Senator 
Thompson and I discussed the other day, in 1999, and now we 
have got September 11 that came up this past year and there is 
no question time is wasting. I hope you can act on it.
    If I can answer any questions, I will be pleased.
    Chairman Lieberman. Thanks, Senator Rudman. I guess the 
highest compliment I can give is that is what I would call 
Rudman straight talk.
    Mr. Rudman. Thank you.
    Chairman Lieberman. I appreciate it on both points and I 
look forward to questioning your position about the focus on 
border control and access. It is a very important one and one I 
promise you we will consider ourselves.
    David Walker, thanks, as always, for being here and we look 
forward to your testimony.

TESTIMONY OF HON. DAVID M. WALKER,\1\ COMPTROLLER GENERAL, U.S. 
                   GENERAL ACCOUNTING OFFICE

    Mr. Walker. Thank you, Mr. Chairman, and Senator Thompson. 
It is a pleasure to be before the Committee again to talk about 
the important issue of homeland security on what is the 7-month 
anniversary of September 11. I would ask, Mr. Chairman, if my 
entire statement could be included in the record and I will now 
summarize it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walker appears in the Appendix on 
page 77.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection.
    Mr. Walker. At the request of the Committee, Mr. Chairman, 
I will focus primarily on two issues, first, the need for a 
statutory base to address the homeland security area, and 
second, the status of our efforts to work with the Office of 
Homeland Security on the many requests that we have received 
from Congress.
    GAO, as you know, has done quite a bit of work in the past 
in the area of homeland security, in part based upon our 
strategic plan that focused on changing security threats in a 
post-Cold War environment. We had recommended months ago that a 
statutory Office of Homeland Security be created as a way to 
institutionalize the important responsibilities that have to be 
discharged in this area.
    In my testimony before the Congress this past fall, we 
noted and applauded the President's effort to establish the 
Office of Homeland Security, which he could do by executive 
order. It was the quickest way to be able to respond. But I 
think now that we have seen several months go by and heard from 
Senator Rudman and others, I think we clearly recognize that as 
the President has articulated, this is a long-term effort which 
will span years, span administrations, and span individuals, 
and will involve billions and billions of dollars.
    So as a result, I think it is important that we recognize 
what actions might be necessary to make this effective over the 
long term and to ensure appropriate accountability to the 
Congress and to the American people for positive results-
oriented outcomes.
    GAO has done quite a bit of work over the years 
demonstrating which type of approaches are more efficient, 
effective, and economical and which enhance accountability to 
the Congress and the American people. Bottom line, there is a 
clear correlation that to the extent that there is a 
significant responsibility that spans administrations and years 
that involves significant sums of money, that Congress has 
historically sought to address those with a statutory basis and 
to head those offices or operations with a Presidential 
appointee subject to Senate confirmation. History has shown 
that those lead to a more effective and accountable activity.
    You have also, Mr. Chairman, talked about the possibility 
of consolidating certain existing governmental operations as a 
means to improve economy, efficiency, as well as effectiveness 
and accountability, and clearly in that regard border security 
appears to be the most critical and, arguably, the most 
dysfunctional operation at the present point in time.
    So in summary, Mr. Chairman, our view is there is clearly a 
need for a statutory basis to address this area in order to 
assure effectiveness and assure accountability.
    With regard to our efforts to work with the Office of 
Homeland Security, we now have over 60 requests from the 
Congress, including from this Committee, to do important work 
in the area of homeland security. In a vast majority of those 
requests, we are pursuing the necessary information from the 
various departments and agencies. There is, however, certain 
information which directly correlates to the activities which 
the President gave to Governor Ridge in his executive order and 
certain related matters that we must obtain from the Office of 
Homeland Security.
    We have been trying for a number of months to work in a 
constructive fashion with that office. In fairness, they have a 
big job to do and not enough financial and human resources to 
get it done and we are very, very sensitive to the need for 
them to focus primarily on their mission and not to 
inappropriately intrude or undercut their ability to get their 
job done.
    The bottom line, however, is that to date, we have received 
nothing. However, just within the last 48 hours, I have been 
informed that the office has decided to engage with GAO, 
whatever that means. I am, however, hopeful. We have a meeting 
scheduled for next week, which is our second meeting. The first 
meeting was attended all by attorneys on the other side, and I 
have great respect for lawyers, including many here in the 
room, but I am a student of history and I know that when 
meetings start off with nothing but lawyers present on the 
other side, then sometimes you do not end up where you want to 
be.
    But I received a call as recently as yesterday saying that 
there would be a meeting scheduled for next week that would 
involve appropriate high-level policy officials and I just want 
to----
    Senator Thompson. I suggest you bring Senator Rudman with 
you to that next meeting.
    Mr. Walker. I think he could be a tremendous help, 
absolutely. [Laughter.]
    But the fact of the matter is is that I think it is 
important that we receive this information because, after all, 
Congress counts on GAO for professional, objective, fact-based 
nonpartisan, non-ideological, fair and balanced analysis, and 
to publish our findings for the entire Congress and, as 
appropriate, for the American people, and I am hopeful we are 
going to be able to do that with the Office of Homeland 
Security and I am cautiously optimistic based upon the call 
that I received yesterday that we will be. But we will let you 
know if we are having continuing problems.
    Mr. Chairman, I look forward to working with you and others 
in the Congress to address this important area and I am more 
than happy to answer any questions you might have. Thank you.
    Chairman Lieberman. Thanks, Mr. Walker. Please do keep us 
posted on that. We had sent, or I had sent a letter to Governor 
Ridge March 19 and just got answers yesterday. These are the 
kinds of questions about the functioning of the department that 
I wish he was here so that we could get more information than 
is contained in the letter, although the letter is an attempt 
to respond.
    Senator Rudman, I want to ask you about the two points you 
made which are important to me. The first is, just talk a 
little bit more. If I understand you correctly, you are saying 
that, and I remember the original proposal from the commission 
had three functions--I may not have the right word--it was 
prevent, protect, and respond.
    Mr. Rudman. Correct.
    Chairman Lieberman. OK. What you are saying now is that 
maybe it would be best--the whole idea is still a good idea and 
the right goal, but there is such urgency about the border, 
problems at the border, that we ought to take out that 
``prevent'' part and do it separately, which would leave out 
some of the critical infrastructure protection and certainly 
the whole FEMA emergency response----
    Mr. Rudman. No. I am sorry. You misunderstood me. I am 
saying that our proposal as amplified by Mac Thornberry and 
Senator Gregg----
    Chairman Lieberman. Yes.
    Mr. Rudman [continuing]. That ought to be your first 
priority. That starts to protect the borders.
    Chairman Lieberman. Right.
    Mr. Rudman. So you take and you create a Department of 
Homeland Security, which you may recall had FEMA in it, which 
was also response.
    Chairman Lieberman. Correct.
    Mr. Rudman. It is response.
    Chairman Lieberman. Absolutely.
    Mr. Rudman. You have FEMA in it and then you have the 
border protection in it and a few other things and you get at 
least the non-strategic, non-intelligence, non-law enforcement 
operation consolidated, which you can do. I mean, let us face 
it, if somebody comes up and says, let us put the FBI in the 
Department of Homeland Security, nobody would be serious, or 
the CIA. We know they have to be where they are. But we can 
certainly take a number of these, and it is outlined in our 
report, further outlined in, I believe, your own legislation 
originally, as well as Mac Thornberry's. So that is the 
suggestion.
    Chairman Lieberman. OK, I have got it, because I think 
Senator Gregg is talking about, if I am right, just doing the 
border control agencies.
    Mr. Rudman. He may be. I would add FEMA to that. But 
certainly the Border Patrol is very important, but if you are 
going to go that far, you ought to put the first responders in, 
as well.
    If I can make just one point, following up, so I can 
clarify one thing----
    Chairman Lieberman. Please.
    Mr. Rudman. The reason we made our recommendation that the 
Secretary of Homeland Security, or the director, if you will, 
have a seat on the National Security Council is to avoid the 
very kind of thing that we are facing right now.
    The Secretary of Defense will come up here about any time 
you ask him to and he is a member of the National Security 
Council. He has an obligation to the U.S. Congress, the House 
and the Senate and its appropriate committees. He is involved 
in strategy making for U.S. national defense.
    The problem, as I see it, with what has been created by 
executive order, and it had to be, it was the only thing they 
could do, was if you continue to have a non-confirmed person 
who has substantial either budget authority or budget veto 
authority over certain sections of the budget, you have got a 
real problem with Congress. I mean, there is going to be a 
problem. There already is a problem.
    Chairman Lieberman. That is where we are right now.
    Mr. Rudman. That is where we are, and we anticipated that. 
If you go back and look at the supplements to our work, the 
reason we suggested that a cabinet-level agency have a cabinet 
officer who is a member of the NSC, then there is no question 
but that he is accountable to the NSC and the President but 
totally accountable to the Congress on the kind of questions 
that the GAO is trying to find out about, and that is why we 
made that suggestion.
    My comment is, I am not sure you fixed it in Title II. That 
is my comment.
    Chairman Lieberman. OK. Talk a little more about that, 
then. Obviously, Title II is in part as it is in the House now 
a blending of two different approaches here.
    Mr. Rudman. Correct.
    Chairman Lieberman. Senator Specter and I focused, inspired 
by your commission, to do the overall department, Senator 
Graham and others wanted to just make statutory a coordinating 
office. Our thought is, as reflected in this agreement, they 
are not inconsistent, so----
    Mr. Rudman. It is not inconsistent with what you are all 
trying to do. It is probably inconsistent, from my experience 
working as chairman of the President's Foreign Intelligence 
Advisory Board--I do not know if either one of you served on 
the Intelligence Committee during that time, but there were 
occasions when we were doing something that was of great 
interest to the Senate or the House Intelligence Committee. 
Legal counsel to the White House said, no way can you go up and 
testify before those committees on the separation of powers. I 
agreed with that. That was right. So we worked an informal way 
out of doing it. That was fine.
    But here, this is much bigger than that. You cannot have an 
informal way to work this out, and I am concerned that if you 
try to have someone who is really in the Executive Office of 
the President who at the same time is accountable to the 
Congress, you are going to get into a problem. You are going to 
get a separation of powers problem and there is going to be a 
lot of--you are going to have a lot more lawyers than you need, 
lawyers instead of people working with the issue.
    That was why we made the suggestion we made. There is no 
question that a cabinet secretary is accountable to Congress, 
no matter what his role in the NSC.
    Chairman Lieberman. I have got it.
    Mr. Rudman. Now, maybe you can make this work, I do not 
know, but my sense is the administration will have some 
problems with this. I do not speak for them, obviously, but 
knowing how most administrations, Republican or Democrat, feel 
about separation of powers.
    Chairman Lieberman. It is a very interesting point you are 
making because I think there are some here on the Hill, at 
least, who feel that maybe the better way to go--a better 
adjective might be the easier way to go--is to make that 
coordinating office statutory because it does not involve all 
the bureaucratic head-knocking that is involved in the proposal 
that we are making. But it does invoke other constitutional and 
practical political problems.
    Mr. Rudman. And I only say, Mr. Chairman and Senator 
Thompson, I caution you. I think you ought to work those out 
very carefully, because you have got a terrific piece of 
legislation here. It is really well thought out. It does need 
some fine tuning.
    Chairman Lieberman. Mr. Walker, do you have an opinion on 
this question?
    Mr. Walker. Mr. Chairman, I think there are two things 
here. One is the strategy, setting the priorities, determining 
who has what roles and responsibilities, how the budget is 
going to be allocated, how do we measure success, coordinating, 
and integrating activities. As this chart showed before, there 
are many, many players on the field. I think it is critically 
important that it be done by a statutory body headed by a 
Presidential appointee subject to Senate confirmation because 
we are talking about years of effort, critically important 
activities, and billions of dollars.
    It could be done in the way that you propose in your 
legislation, which is a statutory entity affiliated with the 
White House. I did happen to have a chance to look quickly at 
Mitch Daniels' testimony. He talks about a possible ONDCP model 
as a possible model.
    Then I think you have the separate issue of operations. You 
are always going to have a lot more entities involved in this 
ballgame than you are ever going to consider consolidating, but 
to the extent that you want to consider consolidating some of 
the more critical, some of the more dysfunctional, whose 
missions have changed fundamentally over the last 200 years, 
whether it be the Customs Service, whether it be the Coast 
Guard, they are fundamentally different in many ways, it is 
helpful. I think you need to address the statutory basis first. 
If you can consolidate where appropriate, then great, but the 
statutory basis is very critical.
    Chairman Lieberman. Thanks. Very helpful.
    My time is up. Senator Thompson.
    Senator Thompson. Excuse me, No. 1 being what?
    Mr. Walker. No. 1 is to make sure that whoever is 
responsible for setting strategy, determining priorities, 
signing off on resource allocation, determining how you measure 
success and holding people accountable, that is creating a 
statutory entity, that may or may not be affiliated with the 
White House, like ONDCP, headed by a Presidential appointee 
subject to Senate confirmation. So you increase the likelihood 
that they will be effective, and second, such that you increase 
the accountability to the Congress and the American people. And 
then they will get their own budget, as well, with both 
financial and human resources.
    Senator Thompson. It looks like we may be headed toward a 
situation where we in the Congress do what we have the 
authority to do and that is to engage in some reorganization 
and some consolidation. I could see perhaps that happening 
without what you refer to as your No. 1. That would be an 
interesting hybrid kind of a situation. You would still have, 
say, Governor Ridge with the status he has got now, but you 
would have hopefully more efficient and consolidated agencies 
and so forth. Would you all view that as some improvement over 
what we have got now but not really where we need to go, I 
mean, not far enough?
    Mr. Rudman. If you look at national defense strategy today, 
national defense strategy is established within the National 
Security Council by the Secretary of State, the Secretary of 
Defense, obviously the President and the National Security 
Advisor, but the majority of people that are involved in that 
are accountable to the Congress.
    I think what Mr. Walker is saying is that you want a 
statutory agency that has that responsibility of setting 
strategy, that is, somehow statutorily created but in the White 
House, and I am not sure of an example of that.
    Mr. Walker. Let me clarify. I think it is critically 
important that functionally, whoever is on the point, whoever 
is in charge, whoever is supposed to be making sure that all 
these are working effectively together and signing off on 
resource allocation, assuring integration and accountability, 
wherever they are, whether that be in some entity affiliated 
with the White House or a Department of Homeland Security, it 
should be statutorily based, headed by a Presidential appointee 
subject to Senate confirmation.
    Now, under this legislation, you propose two things, one, 
to create something affiliated with the White House that meets 
those criteria, maybe like ONDCP, and to consolidate a number 
of other existing operational activities into a new Department 
of Homeland Security. You could theoretically have that 
Department of Homeland Security also be responsible for the 
strategy, also be on the National Security Council, as Senator 
Rudman is talking about, and you could do it two and one and 
just have it in that one.
    But you properly point out, it is going to be a lot more 
challenging, given all the different institutional interests 
and the turf, to be able to make that consolidation happen. I 
think it has a lot of intellectual merit, but if you just 
consolidate the operations and you do not deal with the 
strategy, I do not think you have gotten the job done.
    Senator Thompson. You mentioned a couple of times the 
Office of National Drug Control Policy. That is an interesting 
analogy to me because it looks to me like it is one that both 
sides are using. On the one hand, you are saying that Governor 
Ridge is performing a function much like that, so why not make 
him statutory and why not make him confirmable. On the other 
hand, others point out that the history of that office seems to 
bear out the point that it has more to do with who heads the 
office at a particular time and the President's interest in 
that office than it does the nature of the office or the 
details of its creation. When you had good, strong leadership, 
you got results, and when you did not, you did not.
    Mr. Walker. But Senator, that is true in anything, quite 
frankly. If you do not have the right leader, no matter what it 
is, you are not going to get positive results.
    The concern is that this is a very serious issue which 
spans years, which involves billions of dollars. It has got to 
rise above the individuals involved and the personal 
relationships involved.
    Senator Thompson. You make a point in your written 
testimony that I think is one that bears a lot of thought. I 
have been looking at this. It occurs to me that the Congress' 
big problem is that they want something to oversee. We are 
supposed to do oversight, and the question is, under the 
existing arrangement, who do we oversee, 50 departments or 
parts of 50 departments?
    Some would say the President ultimately under this 
arrangement is accountable. The President might decide a little 
bit later on that perhaps that is not such a good idea where 
every problem is brought right to his doorstep because there is 
no one else there who is accountable and no entity, no separate 
entity over which Congress can exercise oversight. That is what 
you are getting at, I guess.
    Mr. Walker. It is, Senator. In fact, there is one very wise 
Senator, I think it was Senator Fred Thompson from Tennessee, 
who one time said you want to try to avoid approaches that by 
definition potentially lead to over-lawyering.
    Senator Thompson. Did I say that? That must have been 
before I decided to leave here. [Laughter.]
    Mr. Walker. There were some issues that were over-lawyered, 
and I will not go into the details, Senator. I think that is a 
risk that we run right now with the Office of Homeland 
Security. It is not only with regard to testimony, it is also 
with regard to access to records and other issues that are 
necessary for Congress to discharge its constitutional 
responsibilities.
    Now, frankly, I have some sympathy for Governor Ridge 
because from a practical standpoint, he has got a job to do and 
he cannot come up to 10 committees on a recurring basis and he 
cannot respond to requests from 10 different committees for 
basically the same information and I would assert that is one 
of the roles that GAO can play, to help consolidate those 
things, which is what we have done, to try to disseminate the 
information broadly.
    Senator Thompson. Senator Rudman.
    Mr. Rudman. You might recall the original Hart-Rudman 
proposal still stands to have a strong homeland security deputy 
within the NSC. Now, that would be totally different than Title 
II here.
    I would point out to you that, in theory, the National 
Security Advisor is the coordinator of national defense 
strategy, with the Secretary of Defense, the Director of the 
CIA, Secretary of State, not accountable to Congress, not 
confirmed by Congress, because when the Congress wants to get 
at those issues, it has three cabinet-level secretaries it can 
call before it to discuss those very issues. Here, you do not 
have that yet until you start some consolidation, so with that 
confusing answer----
    Senator Thompson. No, that is very helpful.
    If I could, one more thing. Senator Rudman, in your notion 
of consolidation in Senator Lieberman's bill, would you also 
recommend integration of those parts of the agencies that you 
are bringing together, in other words, taking down all the 
barriers and just create a totally new entity and call the 
employees something else?
    Mr. Rudman. Probably not in several. The Coast Guard, you 
would certainly leave as the Coast Guard.
    Senator Thompson. Yes, but I am talking about the part you 
bring into the new entity, the new consolidation.
    Mr. Rudman. Well, the new consolidation, as we have 
proposed it--it has been broadened by the bill--would be the 
Coast Guard, the Border Patrol, there were parts of Customs, 
and I think we also commented on INS, I believe, and we would 
integrate those to the extent that they have duplicatory 
functions.
    The one thing we would do, eliminate a lot of overhead 
because you would not have to duplicate all the human 
resources, all of the financial, all of the other kinds of 
controls that each of them have along the way.
    Senator Thompson. You know how difficult even making small, 
modest organization change is. Do you think the climate is 
right now for us to do something this large, because I have 
never witnessed anything even close to this being accomplished.
    Mr. Rudman. Senator Thompson, Mr. Chairman, let me just 
tell you, if after what happened on September 11 is not enough 
to convince people we have got to secure our borders, I do not 
know what will be.
    I will tell you this. I would not want to be holding public 
office if something like this happens again and it turns out it 
happened because somebody slipped across a border that 
everybody knew was not supposed to, and that is exactly the 
accident that is waiting to happen right now.
    Senator Thompson. Thank you very much.
    Chairman Lieberman. You are absolutely right, and that 
sense of urgency in your voice ought to resonate in all of us 
as we consider these questions, because there is a danger here. 
As the days pass from September 11, our sense of commitment to 
change the structure to protect Americans at home will become 
less intense than the institutional inclination to protect turf 
and avoid change. What is on the line is just so large.
    I want to ask you a last question, which is to both of you, 
I think to Senator Rudman first. It has been about a half-year 
since you were last here on this subject. Governor Ridge had 
just been appointed. I know you have been busy in your own 
activities, but as you have been watching his activities from 
where you have been, has it strengthened your feeling about the 
commission's proposal? Has it altered it in any way? To the 
best of your ability, I know it is somewhat unfair, but how is 
he doing, do you think?
    Mr. Rudman. I think he is doing very well. In fact, not so 
long ago we went down, Gary Hart and General Boyd were invited 
down to meet with Governor Ridge to give him some of our 
thoughts. He wants that to be a continuing discussion, because 
we did a lot of the groundwork in this area several years ago, 
before it was even an issue.
    Considering the daunting task he has and all of the turf 
protection going on, I think he is doing very well. Certainly, 
there are ways to strengthen his role along by some of the 
things that are recommended.
    The one thing people have to understand here, and there has 
been some confusion, Governor Ridge's position and what we are 
talking about in the Department of Homeland Security are quite 
separate. They are very separate.
    Chairman Lieberman. He is actually more like the office 
created in Senator Graham's bill, isn't he?
    Mr. Rudman. Exactly. Precisely. So people say, well, we do 
not want to do that because we do not want to give up Governor 
Ridge's position. They do not understand your bill. They do not 
understand our proposal.
    Chairman Lieberman. Correct, and obviously, if we are lucky 
enough and able to adopt a proposal like the one we support, it 
would then naturally be up to the President where he wanted to 
put Governor Ridge.
    Mr. Rudman. Exactly.
    Chairman Lieberman. He might, in fact, make him the 
Secretary of Homeland Security.
    Mr. Rudman. Exactly.
    Chairman Lieberman. Mr. Walker, do you have any first 
reactions to the----
    Mr. Walker. I think he is doing the best he can given his 
significant responsibility and some of the challenges that we 
have talked about here today. I know that they are 
significantly understaffed. I know that they have got an 
allocation for about 200 people and they are just a little over 
100 right now. I know that they are having real difficulty in 
trying to do things on a dotted-line basis. It was a 
fundamental difference between a solid line versus dotted line. 
If you have got an out box where you can send things out but 
not an in box where people are responsible and accountable to 
you, that is kind of problematic.
    My personal view is he could be even more effective if some 
of the changes we are talking about today were made--his office 
had a statutory basis with its own budget and own people, with 
clear responsibility with regard to what has to be done, and 
with increased accountability to the Congress and the American 
people.
    Chairman Lieberman. I appreciate it very much. Please keep 
us informed, if you would, Mr. Walker, on your communications 
with Governor Ridge's office because it is critically important 
to us, because you are our eyes and ears and everything else, 
and for the American people, that you are getting the 
information from that office that you need.
    Thank you both very much for your continuing service in and 
out of government.
    Senator Thompson. Thank you.
    Chairman Lieberman. Our next witness, panel three, the Hon. 
Mitchell Daniels, Jr., Director of the Office of Management and 
Budget. Mr. Daniels, good morning. Thanks for being here. We 
look forward to your testimony now.

TESTIMONY OF HON. MITCHELL E. DANIELS, JR.,\1\ DIRECTOR, OFFICE 
                    OF MANAGEMENT AND BUDGET

    Mr. Daniels. The card says I am honorable. Did you clear 
that with your colleagues first?
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Daniels appears in the Appendix 
on page 94.
---------------------------------------------------------------------------
    Chairman Lieberman. That is done as an exercise of the 
Chairman's prerogative.
    Mr. Daniels. Thank you.
    Chairman Lieberman. But also after extensive fact finding.
    Mr. Daniels. You have my written testimony and let me just 
make a few verbal comments to get straight to your questions.
    We appreciate the opportunity to be here on behalf of the 
administration for an important hearing that bears on the best 
way to manage, if not a new, certainly the most dramatically 
enlarged responsibility of the Federal Government in quite a 
long time. It is a very, very appropriate hearing and the bills 
that you are reviewing get at some very important questions.
    I think as the administration sees it, confronted with the 
sudden events of September 11, the President embarked on this 
project in the only way that made practical sense and tried to 
get immediately off the mark, and we would assert that this was 
successful in a myriad of ways already. Even though there is so 
much more to do, already, the American public, American 
borders, American infrastructure is better defended, by far, 
than it was just 6 or 7 months ago. For this, certainly the 
support of the Congress has been absolutely indispensable.
    As the President has said from the beginning and Governor 
Ridge has said, the current arrangement might remain the 
preference of the administration or it might change. The 
administration is very open to alternative arrangements and 
they are being looked at actively, as they have been from the 
outset. The national strategy that Governor Ridge's office is 
working on, we will speak to this and may well make 
recommendations to the President about an evolution of the 
initial organizational structure.
    It will look at, clearly, the models that are reflected in 
the bills that you are convened on this morning, your own bill 
and similar offerings from the House side, and I think we will 
all need to examine together the pros and cons of each model. A 
model that is statutory but, I would say, not operational, that 
is to say non-cabinet, I think may have very substantial 
shortcomings.
    I would note for one thing that the size and scope of 
homeland security is already twice that of our National Drug 
Control Policy Office. I would note second that, at least for 
many, that the ONDCP model is not well suited to operational 
responsibility, if it should be decided that that should be 
consolidated.
    On the other hand, a broader, more fundamental change like 
that represented in your bill could have many positive 
attributes. One question we would all have to ask each other is 
whether the jurisdictional territoriality, both in the 
Executive Branch and also here in Congress, makes such an idea 
practical, whatever its theoretical merits.
    I would observe in passing that in each of the President's 
first two budgets, we have suggested very modest here and there 
transfers of authority to try and rationalize some activities 
and those are not always met with enthusiasm, however sensible 
they may appear. There is a very important transfer bearing on 
homeland security, of course, in the 2003 budget submission 
that has to do with consolidating terrorism preparation 
assistance for first responders in one place, at FEMA. We think 
that is an eminently sensible thing, but we have to assure 
ourselves we can convince a majority of Congress to make even 
that modest step. I know you are well aware of the hurdles we 
might eventually face if we went that route.
    I would just close by saying that one thing that does 
appear clear is that under any configuration, there will always 
be, now that homeland security is so obviously a permanent 
fixture of the American Federal responsibility, a need for an 
adviser in the White House to counsel the President about this 
very important and multi-agency responsibility. So even if, as 
might be the case, the administration concluded that new 
arrangements were in order, I would look for the office, the 
Homeland Security Council, I should say, to remain in some 
form.
    Chairman Lieberman. Mr. Daniels, thanks very much for both 
the substance and the tone of your comments, which are quite 
open and made me think back to a meeting that Senator Thompson 
and I and several others from the House and Senate were at at 
the White House last fall shortly after Governor Ridge was 
chosen with the President. I believe you were there. At one 
point, Governor Ridge said that after some period of time--
while they were not for the proposal we were making at that 
time, after some point of time in office, he might come to 
Congress and ask for some organizational alteration and your 
openness to that kind of change is much appreciated.
    Of course, I agree with you about the practical 
difficulties here. I will tell you, and you will not be 
surprised to hear either, that I have already begun to get 
calls from people who are clearly calling on behalf of agencies 
that are consolidated in our proposal and it is fascinating how 
many feel like they would be drawn down by connection. 
Everybody feels they would be drawn down by connection with 
everybody else.
    So it takes me to the point that my colleagues both on the 
Committee and who testified on the first panel made, which is 
that, one, it is obviously not a partisan matter. It is a 
question of what we feel is the best way to get this done, and 
then this critically important job of homeland security and 
Senator Rudman's typical clarity at the end there, God forbid 
there is another terrorist attack on the United States and it 
looks like one of the systems that we could have made better 
was the porous place through which those terrorists came. So we 
have got to work together on this.
    I want to ask you to think, and I do not need an answer 
now, but I would like to just seize the moment, if I could, and 
propose that we think about setting up some kind of informal 
Executive Branch/Legislative Branch working group on this 
subject. It is really that critical. I do not have any yearning 
to get into a confrontation on this. I think the best thing to 
do is just see if we can figure out what we can agree on and 
get it moving, because I think the really fundamental and most 
important confrontation here ultimately will not be between 
Republicans and Democrats, and my guess is not between the 
White House and Congress, but it will be, if I can put it this 
way, between those who favor organizational change and those 
who will resist it.
    I do not know if you want to respond to that at all, but 
the tone of your testimony evoked that unprepared response from 
me.
    Mr. Daniels. My instinctive response is very positive. I 
think that, and I would guess, but I will not presume to speak 
for him, I would guess Governor Ridge would feel much the same. 
I think he is trying to reach out in every way he can to make 
sure that Congress has the information, the understanding, the 
facts to do its job, and as we try to explore the 
organizational question, I would guess that he would be open to 
any sort of arrangement that allows us to get at the right 
answers more quickly. Time is important here. I know he feels 
that urgency and I know you do.
    I quite agree with you that if there is to be a step beyond 
the current arrangement, there will be an unusual alignment, 
probably, of proponents and adversaries. And it will not be 
along the typical lines, and there will be a need for advocates 
of change, whether it is small in scope or very sweeping, to 
pull together to persuade others that their own currently 
vested interests need to take second place.
    Chairman Lieberman. Good. Thanks. We will continue to talk 
about that.
    In that regard, I gather both from some published reports 
and just general word around that Governor Ridge, in some sense 
true to what he said might happen when we were in the meeting 
at the White House last fall, did put forward a significant 
proposal to reorganize some of the key border agencies into a 
unified department. But we have also heard that he ran into 
exactly the kind of turf battles that we have just referred to 
and that the Homeland Security Council recently recommended a 
much more limited proposal, as one of the panelists on the 
first panel indicated, involving a consolidation of Customs and 
some INS enforcement functions into a border agency within the 
Justice Department.
    I wondered whether you participated in the Homeland 
Security Council discussions on that issue and if you, to the 
extent you are able, could reflect on what the objections were 
to Governor Ridge's proposal and what lessons you or we should 
draw from that as we go forward.
    Mr. Daniels. I am a member of the Homeland Security 
Council, and I did participate in multiple meetings on that 
subject. Without breaching the confidence of anyone who 
participated, I think the characterizations are accurate that 
there have been some reservations and some real practical 
questions, and I think this is still very much under review. No 
final recommendation has been made or accepted by the 
President, and he personally has asked some very tough 
practical questions, some of which I had not heard asked 
before. He has a way of doing that. So I think that the 
governor's office is still working and working with agencies 
who would be affected.
    I think the other thing to be said is that it is very 
possible that just as the initial arrangement, as I mentioned, 
was from the outset described as potentially not the final one, 
we may have a steady evolution as we all learn more about 
homeland security, where the priorities really are, and where 
the dangers really are. I think even if you proceed the 
legislation successfully, it probably ought to be done in 
something of a tentative spirit, understanding that it may not 
be the last stop or the final end state.
    Chairman Lieberman. Thanks very much. My time is up on this 
round. Senator Thompson.
    Senator Thompson. Thank you very much. Thank you, Mr. 
Daniels, for being here today.
    When we have these hearings, it forces us to catch up and 
read and talk to as many people as we can and really focus. 
Where I come out right now on this is the following: The 
President and the administration should have an opportunity to 
carry this ball a long way down the field, the way in which it 
sees best, for a lot of different reasons. I think that is what 
the President wants to do. I think it makes some sense. I think 
analyzing exactly what we need is going to take a longer time 
than any of us would like to acknowledge. We have waited too 
long.
    Senator Rudman's report is just one. You could not stack 
all the GAO reports in this room pointing out the problem that 
was imminent that we saw the culmination of on September 11.
    Just because we have not acted legislatively does not mean 
nothing is being done. I mean, Governor Ridge's operation is 
obviously up and running. They have got a national strategy 
coming out in July that I think we ought to take a look at 
before we do much of anything else and I think a lot of 
progress is being made in a very tough job that is going to 
take a long time.
    But what concerns me as we go along is that we are going to 
be squabbling and spending time and energy on less important 
things. Congress is going to continue to feel a need to have 
some oversight over something, and they cannot do that with 
regard to the President and they cannot do that with regard to 
someone who does not come up here every once in a while and 
tell them what is going on.
    You have got an entity there that is involved, and a person 
there who is involved in the most critical issue facing this 
Nation. The office's spending $35 billion. We cannot forever, 
it does not look to me like, stay where we are right now with 
regard to that. I mean, this business about coming up and 
testifying before all these committees is a legitimate concern. 
What you might do is challenge us, as you address this problem, 
for us to address some of our problems in the dozen committees, 
almost, we have got meddling in these areas.
    But ultimately, it looks to me like that is the direction 
that we are headed in. We have been trying to get 
accountability and to do better oversight government-wide for a 
long time. I think this is a part of that. What we are seeing 
here is just a small part of the problem that we see throughout 
government that you are well aware of. The whole government 
needs to be organized. It is not just a matter of homeland 
security that we are outdated in, it is with regard to so many 
problems facing us. We have got a framework that is geared to a 
prior century and it is going to be a monumental task.
    So it looks to me like the thing that we really need to 
concentrate on is the reorganization part, and where the boxes 
might wind up, what needs to be consolidated and all that. This 
is what we will have to spend a lot of time on deciding, 
because clearly, we have got to do a better job there. But that 
is going to take the efforts. Even a modest effort will run 
into all kinds of problems. We are the main problem up here.
    If I were the administration, I would challenge us to let 
us work together toward reorganizing. It is going to take 
Presidential leadership. It is not like Congress comes up with 
something. We need leadership. Decide what you want to do, and 
put the challenge to us to do what we ought to be doing, and 
that is reorganizing not only these national security-related 
entities but ourselves. And then, as a part of that, be willing 
to look at some kind of a set-up, an entity where we are not 
squabbling all the time over who is going to testify to whom.
    Everybody knows that, I think, eventually, with a position 
of this importance involving this much money, that we have got 
to--as time moves on, after you have had an opportunity to look 
at all of this and keep us from rushing into doing something, 
perhaps, that we might need to undo later, that somewhere, 
there is where we are going to need to be.
    So as a friend, I suggest that you consider that and take 
that back and see if we cannot in the future concentrate on the 
real issue and the real problem. We are going to have 
leadership. As long as the President is on top of it, as I know 
he will be, I think we are going to be fine. As long as Mr. 
Ridge is on the job, I think we are going to be fine. But we 
need to get that little sideshow, which is a necessary 
sideshow, we need to get that off the books and concentrate on 
what we really need to do. We need to reorganize ourselves for 
the long haul in a way that will be there and be workable 
regardless of who is President or who is the leader in this 
effort.
    So I merely suggest that to you and thank you for your 
consideration of that.
    Chairman Lieberman. Thanks, Senator Thompson. Senator 
Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman, and thank you for 
convening these hearings and welcome to you, Mr. Daniels.
    Let me ask some questions about the budget, the homeland 
defense efforts, the anti-terrorism efforts, and how we get a 
handle on those. Let me read to you from the GAO report 
relative to that on page four. ``We recognize that the Office 
of Homeland Security has achieved some early results in 
suggesting a budgetary framework and emphasizing homeland 
security priorities in the President's proposed budget.''
    This is then what the Comptroller General says. ``Despite 
OHS's efforts to date, however, the informal structure and 
relationship of that office to the White House and other parts 
of the Executive Branch may not represent the most effective 
approach for instituting a permanent entity with sufficient 
authority to achieve all the important objectives for securing 
our borders. Without a statutory framework that clarifies OHS's 
roles and responsibilities, its budget and resources, and its 
authority to leverage other Federal departments and agencies, 
the office will likely face persistent obstacles in obtaining 
fast, effective, and sustainable results across the government 
and throughout the Nation.'' He also said that they have had 
access problems. The Comptroller General says, ``I must say, we 
have experienced some access problems in connection with our 
OHS-related efforts.''
    The numbers that we are given on budget are the following, 
from page five of his report. Congress' allocation of 
approximately $60 billion in fiscal year 2002, including a $40 
billion supplemental request, and the President's request of 
approximately $38 billion for fiscal year 2003 serve to 
underscore the importance of the effort that he has described.
    Are those numbers given to us in one place in the budget 
with a description of all of the programs and all of the 
agencies that are involved in totaling up that number? In other 
words, in the budget that you have submitted to us--I should 
know the answer to this, but I do not, so I want to lay that as 
the predicate--is that a listing of 30 agencies and 200 
programs or what is it?
    Mr. Daniels. Yes, the actual number for the 2003 submission 
is $37.7 billion. We assert that it is fully accurate because 
it is built up based on a definition that is certified by the 
Homeland Security Council. I think that definition is very, 
very important. It will surely be dynamic over time, possibly 
like the organization we are discussing. But it is important 
that we have one so that people do not succumb to the human 
temptation to recharacterize less-important priorities as 
inherent in homeland security. But that said, $37.7 billion is 
the right number----
    Senator Levin. Is there a discrete list of how many 
programs are involved in that?
    Mr. Daniels. I am sorry?
    Senator Levin. There is a discrete list in the budget of 
what----
    Mr. Daniels. That is correct.
    Senator Levin. How many are there, how many programs, 
approximately?
    Mr. Daniels. I would like to get back to you with that 
answer so as not to guess incorrectly. I can tell you that----

        NOTE: LThere are over 100 programs (info provided to Senator 
        Levin's staff at their request).

    Senator Levin. How about a range?
    Mr. Daniels. One hundred to two hundred.
    Senator Levin. Two hundred programs, and about how many----
    Mr. Daniels. At least in terms of line items. I am 
answering that based on having rather regularly looked down an 
itemized list. They are heavily concentrated. Five departments, 
by my reckoning, account for 82 percent of the spending, the 
big five being Defense, interestingly, Justice, HHS, FEMA, and 
Transportation. But there are already, and undoubtedly there 
will be more, scores and scores of individual activities.
    Senator Levin. In total, how many departments might be 
involved, if you look at all of the----
    Mr. Daniels. Probably 30 or something like that.
    Senator Levin. Thirty. That is the number that we have 
been----
    Mr. Daniels. I will count them for you.
    Senator Levin. Let us assume it is 25 or 30. That is close 
enough.
    Mr. Daniels. I can count 24 easily.
    Senator Levin. Twenty-five to 40. Does Governor Ridge 
provide you with the budget request for all those programs or 
do they come in from the separate departments?
    Mr. Daniels. Let me speak to this a little, because I think 
it relates back to some important things you said earlier in 
your statement and that the GAO report speaks to.
    Before you arrived, in my opening comment, I reiterated 
that the administration remains very open on the question of 
what the eventual organization for homeland security ought to 
look like. It may be the arrangement we have today, but 
possibly some evolution of it.
    One problem that was forecast at the beginning that I would 
claim has not occurred at all was the ability to, I think you 
said the authority to leverage resources. There is plenty yet 
to be done and there certainly have been some obstacles and 
some places where it has been difficult to move quickly.
    But one thing that I think has worked pretty well so far is 
that Governor Ridge, as the President's advisor on this 
subject, and his office, where they have identified needs, have 
secured them, either in the supplemental request they have made 
or in the budget proposal we have made for 2003. He has spoken 
to this many times himself. He has said, in essence, or 
literally, anything he has asked for, he has gotten. This was 
the President's guidance and we have implemented that using the 
offices of OMB.
    So the answer to your question about budgets is that we 
took the definition of what is homeland security, placed it in 
front of the agencies, and invited all their suggestions. These 
were then screened by Governor Ridge's office, staffed in part 
by the outstanding professionals that I work with at OMB, and 
he then recommended to the President and certified to the 
President the adequacy of the requests we have made to date.
    Senator Levin. OK, so the process now is that you get from 
30 to 40 departments requests. He screens them, decides whether 
or not he recommends them and to what extent he recommends 
them, and certifies that they are all necessary pursuant to the 
criteria in the description of homeland defense, so that----
    Mr. Daniels. I should probably also say, I think it is 
increasingly the governor and his office who are initiating and 
guiding agencies in terms of what is needed. This was not 
always like a usual budget exercise. It was not a matter of 
subtraction. There have been a number of areas, and I know 
there will be many more in which the governor will be 
initiating and recommending activity that may or may not have 
been contemplated by an agency at the time.
    Senator Levin. It is very clear that his role, then, is not 
only significant but growing, and we need to know here, it 
seems to me, where those recommendations come from, who is 
responsible for making them, whether or not more has been 
requested than has been provided, and who is accountable for 
the funds once they are provided. He is so clearly in the 
center of it, it seems to me that it is very difficult for us, 
and more importantly for the public, to have a handle on where 
they go for funding.
    Do they go to Governor Ridge's office to urge that there be 
a program in the next year's budget? Do they go to one of 40 
agencies to urge that? Are they then referred to Governor Ridge 
saying, well, gee, if he really wanted it, he would have 
initiated it? Go see Governor Ridge. Governor Ridge then says, 
well, go see that department, they are the ones that really 
administer those funds.
    It is too mushy from the public accountability perspective. 
It is not clear. The accountability is not clear. The authority 
is not clear. And I must say, I do not see any way offhand of 
clarifying all those things without doing what the GAO has 
recommended, which is to provide a statutory authority for that 
office. I do not see how we are going to accomplish those 
important aims without doing that.
    My time is up, and if it is all right, I think maybe we 
ought to allow a response.
    Chairman Lieberman. Yes.
    Mr. Daniels. You may well be right, Senator. Once again, I 
think the whole matter of the best organizational form is still 
very much under study. I would say that homeland security will 
not be different from any other government activity I can think 
of in terms of its mushiness and the multiplicity of parties 
who get in the act. We frequently get advice from the public 
through Congressional offices, for example, about what ought to 
be spent, so people know to visit various windows to make a 
case.
    But I think under the current arrangement, Governor Ridge 
should be seen and is seen by most people--his office is--as 
the central place for advising on the big questions we face 
now. What should the national strategy for homeland security 
comprise? What are the biggest threats? Which should be met 
first, and so forth? I think they are doing a great job of 
rationalizing all that, working with the departments.
    Senator Levin. Thank you. Thank you so much.
    Chairman Lieberman. Thanks, Senator Levin.
    I do not have any further questions. I would just make a 
final comment, which is listening to Senator Levin ask a series 
of questions that I was going to ask if he did not, the answers 
I find to be encouraging but also leading in a different 
direction, which is encouraging in that I am glad Governor 
Ridge is playing that central role with OMB in separating out 
all the requests that are coming in for funding for homeland 
security.
    Your point about defining exactly what is homeland security 
is a very important point. I heard somewhere that there may 
have been over a couple hundred billion dollars in requests 
that actually came in to you.
    Mr. Daniels. That is correct.
    Chairman Lieberman. And you got it down to $37.7 billion, 
which in itself, of course, is a considerable number. It is 
very important that Governor Ridge was right there with you, 
and by your testimony now, ultimately had the final say insofar 
as he certified to them. But it also clearly shows that he is 
more than just another advisor to the President, that he is 
exercising the kind of authority that I would want someone to 
exercise who has responsibility for homeland security, and 
clearly, it makes at least two points to me.
    One is that we need to give him the statutory authority to, 
if I can, legitimize or put into law the powers that he is 
actually, and quite correctly, exercising, and two, that leads 
me also to make an appeal to the administration through you to 
figure out a way that he can testify before committees of 
Congress. This is one of those cases--we have been quoting 
Machiavelli all morning. I do not have a Machiavelli quote 
here, but we have all been in situations in public and in 
private where we have taken a position and then it gets carried 
down the road to a point where even we begin to doubt it or 
wonder about its logical consistency, but we certainly are not 
going to say we made a mistake. At least, I own up to saying I 
have done that.
    It seems here we have gotten to a point where when Governor 
Ridge was offered to this Committee and the Appropriations 
Committee to do a public briefing but would not come to testify 
at a public hearing, there is not much difference and we ought 
to figure out how to--there is a practical problem, which I 
think we could work on together, which is we do not want him 
being called up to every committee of Congress every day. We 
want him to have the time to do his job. That, we can figure 
out.
    So I hope while we are working on legislation, we can also 
work our way through the tussle that is going on about whether 
he testifies, because it is fundamental to the accountability 
of a person who is exercising, quite correctly, the kind of 
authority he is exercising.
    Mr. Daniels. The administration does, too, Senator, and I 
think you characterize it accurately. The governor is doing all 
he can and he is open to additional ideas about ways to inform 
and enable the Congress to do its job. At last count, he has 
had 40 now meetings, and more are scheduled, open, closed, and 
otherwise, everything other than formal testimony. This does 
not count the 100-plus formal appearances that individual 
cabinet members have made.
    All, I think, that separates the viewpoints at this point 
is really an honest difference about a principle of long 
standing, about Presidential advisors testifying. I know he 
remains very flexible about trying to achieve the end you are 
looking at while trying not to walk away from that principle.
    Chairman Lieberman. I appreciate that. Obviously, my point 
is I think he is now happily and correctly, necessarily, more 
than an advisor.
    Thanks very much for being here. I appreciate your 
testimony very much. I look forward to continuing cooperative 
work on this important matter.
    We will now call the fourth panel, Dr. Philip Anderson, 
Senior Fellow and Director, Homeland Security Initiative, 
Center for Strategic and International Studies; I.M. Destler, 
Center for International and Security Studies, School of Public 
Affairs, University of Maryland; Stephen M. Gross, the Chair of 
the Border Trade Alliance; Dr. Elaine Kamarck, John F. Kennedy 
School of Government, Harvard University; and Paul C. Light, 
Vice President and Director of the Governmental Studies Program 
at The Brookings Institute.
    Thanks to all of you for being here. Thanks for your 
patience. I think it has been a very interesting morning so far 
and I am sure it will only continue in that productive way with 
this distinguished panel.
    Dr. Anderson, why do you not begin.

    TESTIMONY OF DR. PHILIP ANDERSON,\1\ SENIOR FELLOW AND 
 DIRECTOR, HOMELAND SECURITY INITIATIVE, CENTER FOR STRATEGIC 
                   AND INTERNATIONAL STUDIES

    Mr. Anderson. Good morning, Mr. Chairman, and Senator 
Thompson. It is an honor to be here this morning to present my 
views on the proposed legislation. Let me say that my statement 
represents my views alone and should not be considered the 
institutional perspective of the Center for Strategic and 
International Studies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Anderson appears in the Appendix 
on page 98.
---------------------------------------------------------------------------
    There is a description in my written testimony of the 
projects that CSIS has been involved in, both prior to and 
since the tragic events of September 11.
    In my view, in this new and very dangerous environment, the 
proposed legislation, if enacted, would greatly simplify 
management processes and unify the efforts of the 46 Federal 
agencies that to varying degrees have responsibility for 
homeland security. Effective communication and coordination 
among these disparate agencies is extremely complicated. In the 
absence of organizational reform, it will only become more 
difficult in the years ahead.
    With responsibilities spread across so many agencies, it is 
equally difficult to ensure that no duplication of effort 
exists between organizational visions, and with the additional 
requirement for the Federal Government to coordinate and 
communicate efforts with State and local governments, and 
further, to develop the means to work with and cooperate with 
the private sector, it is clear that some organizational reform 
must be initiated to ensure unity of effort.
    The most important question to consider at this juncture is 
when to initiate organizational reform. Some would argue that 
there is no time to waste and that well-informed decisions 
should be acted on immediately in this environment. There are 
two problems associated with the desire to act now.
    First, an ongoing crisis may not be the best time to 
initiate organizational reform. With nearly every aspect of the 
national security apparatus focused on the war on terrorism, 
such broad-reaching change at this point in time could be an 
unwelcome distraction.
    Second, and more importantly, in the absence of a 
comprehensive national homeland security strategy, there can be 
no clear understanding of the threat to be assessed or any real 
sense of priorities from which specific requirements will 
emerge.
    It would seem that to organize in the absence of a strategy 
would be putting the proverbial cart before the horse. The 
strategy should serve as the basis to initiate organizational 
reform and allocate resources rather than the other way around. 
Several things to consider:
    First, a comprehensive national strategy should serve as 
the basis for organizing the Federal Government for homeland 
security. Organizational reform at any time will not be easy, 
but will be far more difficult in the absence of a strategy. 
Without a strategy, no framework exists to base decisions about 
how to organize the government and spend the taxpayers' money.
    In addition, most agencies of government that are focused 
on homeland security have other primary missions that will have 
to be accounted for. For example, the Customs Service has a 
primary mission as a revenue-generating agency, focused on 
goods and trade, not on security. Last year, the Customs 
Service collected $23.5 billion in taxes, fees, and penalties, 
second only to the Internal Revenue Agency in generating 
government income.
    Second, a comprehensive threat assessment should serve as 
the basis for the national strategy. While we remain extremely 
vulnerable in many areas, most do not represent critical 
vulnerabilities simply because they are not likely targets. How 
many would argue at this point that commercial aviation is a 
critical vulnerability? On the other hand, private aviation, 
with 500,000 private pilots, 200,000 private aircraft operating 
from approximately 18,000 air fields throughout the country 
could certainly represent a critical vulnerability.
    Some would argue that the nuclear power industry is 
critically vulnerable. I would submit that the nuclear power 
industry, the most regulated in the United States, is far less 
vulnerable than other aspects of energy infrastructure, to 
include liquid natural gas operations, refineries, and 
petrochemical facilities.
    The bottom line is that without an informed assessment of 
how those that would do us harm might act, the ability to 
organize and allocate resources effectively is extraordinarily 
difficult, if not impossible.
    Another important point relates to the way in which the 
current organization of government looks at the threat. FEMA is 
a good example, with an organizational culture that has, for 
the most part, addressed natural disasters rather than a 
thinking enemy.
    Third, the means to create public/private partnership must 
be developed to ensure adequate security of critical 
infrastructure, and this is critically important. The private 
sector remains ultimately responsible for securing the 
infrastructure it owns and operates. This responsibility is 
complicated by the requirement to generate profits for 
stockholders and to provide customers with affordable service. 
Clearly, the Federal Government should share the burden for 
critical infrastructure protection. While the government cannot 
always step in and assume full responsibility for critical 
infrastructure, it must find ways to incentivize the private 
sector.
    It is essential that the private sector should be included 
in the development of the national homeland security strategy 
and in its implementation. The strategy and the organizational 
construct that derives from it must simplify the communication 
and coordination problem between government and the private 
sector.
    A good example of this problem can be seen in the 
containerized shipping industry. Approximately 7.5 million 
containers enter the United States each year and the contents 
of these containers originate with approximately 450,000 
shippers. This clearly represents an unworkable number. But an 
interesting statistic is that the contents of 60 percent of the 
containers that enter the United States originate with about 
1,000 shippers globally, and this would seem to be a workable 
number where public/private partnership might be able to make a 
difference.
    The bottom line is that any organizational reform must 
formally address the requirement for public/private 
partnership.
    Again, Mr. Chairman, in my view, over the long term in this 
new and very dangerous environment, organizational reform such 
as that described in the proposed legislation must be initiated 
to ensure unity of effort and clear lines of authority, 
responsibility, and most importantly, accountability. Assigning 
the bulk of responsibility to a cabinet secretary and a White 
House directorate the way it is described in the proposed 
legislation would seem to represent a much improved process for 
ensuring accountability, rather than the current situation 
where responsibility is shared across 46 agencies of 
government, where ensuring accountability is virtually 
impossible.
    The most important question, again, to consider at this 
point is not whether to initiate organizational reform but when 
to initiate organizational reform. Assuming the administration 
can produce a comprehensive strategy this year, and once it is 
published, the debate can begin on implementation, and that 
will certainly involve the appropriate organization for 
homeland security so that every aspect of government can move 
forward together in a unified and coordinated way to fully 
address what is surely the most complex problem our government 
has ever had to face.
    Mr. Chairman, the road ahead remains complex and fraught 
with challenges yet to be addressed. I thank you for the 
opportunity to testify this morning. The Center for Strategic 
and International Studies is ready and willing to help. 
Organizing effectively to secure the American homeland is 
essential to our country's survival and prosperity. We 
appreciate the Committee's leadership on this issue and we look 
forward to helping in any way we can.
    Chairman Lieberman. Thank you, Dr. Anderson.
    It strikes me that we go from Dr. Anderson of the CSIS to 
Dr. Destler of the CISS. Thanks for being here.

 TESTIMONY OF I.M. (MAC) DESTLER,\1\ CENTER FOR INTERNATIONAL 
 AND SECURITY STUDIES AND PROFESSOR, SCHOOL OF PUBLIC AFFAIRS, 
                     UNIVERSITY OF MARYLAND

    Mr. Destler. Thank you, Mr. Chairman, and Senator Thompson. 
We very much appreciate the opportunity to present our views on 
organizing for homeland security. I say ``we'' because this is 
a statement made jointly with my colleague, Ivo Daalder of The 
Brookings Institution, who was here earlier but could not stay 
for the entire hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Messrs. Daalder and Destler appears 
in the Appendix on page 108.
---------------------------------------------------------------------------
    We are grateful for the work that you and Senator Thompson 
and your Committee and staff have been devoting to this urgent 
issue, beginning, I think, really days and weeks after 
September 11, and perhaps even before that to some degree. We 
are all addressing an unprecedented challenge. We are trying to 
listen and learn even as we give our best judgment, and so I 
will state very directly the views that Ivo and I have 
developed, but we realize that this is a challenge about which 
we continue to learn and we should be open to changing our 
views.
    Basically, our judgment is that this is an ambitious bill. 
It contains many desirable features. At the same time, we think 
maybe it goes too far in some directions and not far enough in 
others. Let me be specific.
    We agree with this Committee that the current U.S. 
Government organization for homeland security needs to be 
strengthened. But rather than seek a new department or a new 
White House office, we believe Congress should build upon what 
the Bush Administration has established.
    Specifically, we favor legislation that would make the 
Homeland Security Council and Office statutory entities with 
their director confirmable by the Senate, legislation that 
would enhance the Homeland Security Director's budget 
authority, and legislation that would establish an independent 
Federal border agency including a broad range of current units 
responsible for monitoring people and goods entering the United 
States.
    The main reason why we think a Department of Homeland 
Security cannot be the main organizational response is that it 
cannot include more than a fraction of the agencies and 
functions involved. Many players--the Departments of Defense, 
Justice, and Health and Human Services, to take the largest--
will necessarily remain outside of this department, not to 
mention the FBI and the intelligence community. Hence, the 
predominant need will be effective coordination of separate 
organizational entities.
    The draft legislation acknowledges this fact, but its cure, 
at least under current circumstances, could be worse than the 
disease because you would create both a Secretary for Homeland 
Security and a director of a national office for combating 
terrorism with attendant confusion as to which one was, in 
fact, the leading Federal official on this vital issue. And 
making the two co-chairs of a council charged with overseeing 
implementation of the national strategy seems to us a recipe 
with low probability of success and high probability of 
confusion or conflict.
    But we agree that the homeland security structure needs to 
be strengthened. The basic organization developed by the Bush 
Administration is, we think, sound because coordination is the 
overriding problem. But its credibility has come into question 
due to Governor Ridge's unwillingness or inability to fight and 
win some of the tough organizational battles. We believe that 
his power and the power of the organization would be enhanced 
by giving the Homeland Security Office, council, and director 
statutory and budgetary authority.
    As a Presidential advisor confirmed by the Senate, Governor 
Ridge would gain greater stature in general, and would also, by 
definition, have much greater ability to work effectively with 
the Congress. We do not think the parallels are perfect between 
this position and those of the National Security Advisor and 
the National Economic Advisor. We think there is a greater need 
in this case for this official to be working directly with the 
Congress.
    We do believe that in providing such authority, Congress 
should eschew any desire to micro-organize and pass a clean 
bill using the language of the President's executive order.
    To strengthen the director's influence over homeland 
security and the homeland security budget, we strongly support 
the provision in Senator Lieberman's bill, which I understand 
will be cosponsored by Senators Graham and Specter, that would 
give the director power to certify or decertify agency budgets, 
comparable to the power currently exercised by the drug czar. 
In addition, we would integrate the homeland security budget 
effort more formally with the Presidential budget process run 
by OMB, as we understand it has been informally integrated this 
year, by designating the chief Office of Homeland Security 
budget person as the OMB associate director responsible for 
homeland security.
    It would also, as suggested by Senator Thompson, be of 
enormous benefit if Congress could do more to create its own 
focal points. Ideally, it would be nice if Appropriations 
subcommittees for homeland security could be established.
    Finally, we support creation of a Federal border agency, 
such as recommended in Senator Gregg's legislation, 
incorporating the Customs Service, the Coast Guard, the INS 
enforcement arm, the Agricultural Inspection Agency, and 
perhaps also the newly created Transportation Security Agency 
and possibly the Consular Affairs Bureau in the State 
Department and the entire INS, including its service division.
    The administration's current proposal for merging the 
Customs and the Border Patrol into a sub-unit within the 
Justice Department seems to us to fall well short of what is 
needed. The agency needs to be both larger and independent of 
any other cabinet official. Border security is clearly an area 
where we believe organizational consolidation can make a major 
contribution to securing our homeland.
    Thank you very much.
    Chairman Lieberman. Thank you, Mr. Destler, very much.
    Mr. Gross, I appreciate your presence here. You bring a 
unique perspective and we look forward to hearing it now.

   TESTIMONY OF STEPHEN M. GROSS,\1\ CHAIRMAN, BORDER TRADE 
                            ALLIANCE

    Mr. Gross. Thank you very much, Chairman Lieberman, Ranking 
Member Thompson, and Members of the Committee. Good morning. My 
name is Stephen Gross. I want to thank you for this opportunity 
to testify this morning on the proposed realignment of Federal 
agencies that are so important to homeland security. I have 
submitted a longer written statement for the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gross appears in the Appendix on 
page 114.
---------------------------------------------------------------------------
    I am the president and owner of Border Trade Services in 
San Diego, California. We are a cross-border warehousing 
logistics company, employing over 100 people in San Diego, 
California, and Tijuana, Mexico. But what brings me here today 
is my position as the 2002 Chairman of the Border Trade 
Alliance, the BTA.
    The BTA is a grassroots organization that was founded in 
1986 as a group of individuals, entities, and businesses that 
conduct legitimate cross-border business in the NAFTA 
marketplace. As such, we have a unique perspective on the 
security challenges facing our land borders.
    Representing a group that lives and works in border 
communities, I bring to you today firsthand experience in 
interacting on a daily basis with the Federal agencies posted 
along our borders, namely the U.S. Customs Service, the 
Immigration and Naturalization Service, and the Border Patrol.
    The events of September 11 presented all of us with 
challenges, the likes of which we had never contemplated 
before. But our organization is hopeful that these terrible 
events have presented our Nation an opportunity to improve the 
way we approach security, and that includes examining how the 
resources of our borders can be better managed to enhance our 
physical and economic security.
    Senators, our land border security and trade facilitation 
is severely lacking. The various Federal inspection service 
agencies posted along the U.S.-Mexico and U.S.-Canada Borders 
are charged with poorly defined and sometimes conflicting 
missions. Oftentimes, our ports of entry are home to petty 
squabbles over turf and resources and fall victim to 
mismanagement.
    The land border ports are not home to business's best 
practices. At each port of entry, Customs and INS personnel are 
operating with different missions, despite the fact that 
Customs and INS are cross-trained in the primary inspection 
lanes. The INS or Customs employee at the port of entry 
receives incentives to carry out the individual mission of his 
or her employing agency. There is no incentive to work together 
or speed legitimate trade and cargo through our ports of entry.
    Despite recent talks in this post-September 11 environment 
of improving lines of communication at the highest levels in 
INS and Customs, we rarely see the same spirit of cooperation 
employed at the ports of entry themselves, where it is needed 
most.
    Because of these reasons, we view Senator Lieberman's 
legislation with great interest. We believe that Senator 
Lieberman's bill would go far in decreasing government costs, 
increasing efficiency by placing both Border Patrol and Customs 
under the same agency head. Realignment of this sort would 
improve border security by removing a layer of bureaucracy 
between the ports of entry and the coordinator of all security 
efforts. Realignment would put one entity in charge, a cabinet-
level secretary overseeing the Department of National Homeland 
Security.
    We believe that, among other things, agency realignment 
would establish accountability for border inspection in a 
single agency, eliminate overlap and duplication of efforts, 
prevent the development of redundant support systems, 
facilitate and streamline the processing of legitimate trade 
and travel, and improve enforcement of laws at our border.
    We do have some concerns with this bill, however. Our 
organization has always believed that increased security at our 
borders need not to be achieved at the expense of trade 
facilitation. Indeed, we believe that the two are one of the 
same. With the proper resources, our Federal inspection service 
agencies can quickly weed out those individuals who would seek 
to do us harm while processing legitimate trade and travelers 
with a reduction, or at the very least no increase, in the time 
the cargo or traveler has spent waiting at the port of entry. 
With that said, we want to be sure that any new emphasis on 
security does not hamper legitimate trade and travel, which is 
so vital to our economy.
    Second, we recommend that all enforcement functions of INS, 
not just the Border Patrol, be transferred to this new agency. 
Our hope is to put an end to turf battles at the ports of entry 
and have everyone committed to the same goal. We fear that only 
shifting Border Patrol to the Department of National Homeland 
Security and not the other enforcement functions of INS will 
perpetuate these problems and leave our border security 
strategy without proper coordination.
    Third, while it may seem trivial, we do have some concerns 
about the message the Department of National Homeland Security 
conveys to our trade partners, especially our NAFTA neighbors, 
Canada and Mexico. Perhaps a name along the lines of Department 
of National Homeland and Economic Security would more 
accurately convey that ours is a Nation still open to the world 
market.
    There are other proposals for agency realignment 
circulating on Capitol Hill and we welcome the opportunity to 
comment on them, as well. We are supportive of any effort that 
will secure our borders and facilitate the passage of 
legitimate trade and travel. We do, however, advise that any 
transfer of INS enforcement functions and Customs not end up in 
the Department of Justice. The Department of Justice does not 
have a proven track record in consulting with private industry 
on a regular basis and we fear that maintaining our country's 
strong trade position will not be a priority in such an 
organization.
    Improving security at our land borders is a worthy and 
necessary goal, not only to ensure our physical safety, but 
also to preserve our economic security. The World Trade Center 
was targeted on September 11 because those two towers were 
powerful symbols of our Nation's presence in the global 
marketplace and our strong domestic economy.
    As a result of implementation of the North American Free 
Trade Agreement, trade between the United States and Canada has 
grown enormously and all signs indicate that this trade will 
continue to grow.
    There are some that say now is not the time to take on an 
initiative as bold as that outlined in your bill. They say 
things are getting better and the agencies responsible for 
border management are working together now more than ever. We 
disagree and best answer those claims with a question. What is 
so great about today's situation at the borders that is worth 
preserving? To what point will things have to deteriorate 
before we look at making a bold change?
    We also want to assure the Committee and the public that we 
have little interest in creating another large bureaucracy in 
Washington that the trade community will have to wrestle with. 
If anything, we view the proposals contained in this bill as a 
way to streamline communication between industry and regulators 
by creating a one-stop-shop on cross-border issues.
    In conclusion, no amount of reorganization is going to 
result in better border management without a commitment by 
Congress to provide agencies with the tools they need to keep 
trade flowing and make our borders more secure. But now more 
than ever is the time to start looking at a significant 
realignment of agencies posted at the border. If real security 
and trade efficiency are to be achieved, we must take the first 
step by consolidating the agencies into one leadership 
structure. It may take years to change the internal cultures at 
the individual agencies, but without this first step, our goals 
will never be achieved. This is a matter of national survival 
and economic security.
    Looking ahead, we believe that, ultimately, we are going to 
have to look seriously at consolidating all agencies with 
enforcement duties at the land border ports of entry into one 
agency with responsibility solely for border administration. 
This bill is a good first step.
    Finally, we do not make these recommendations lightly and 
we know that the type of changes we are discussing here will 
not completely insulate us from outside threats or be the 
ultimate solution for our ports of entry. But years of living 
and working in border communities in and around ports of entry 
have brought us to the same conclusion. Bold changes are needed 
if our national security and economic security are to be 
preserved.
    On behalf of the Border Trade Alliance, I want to thank you 
again for listening to my comments here today. I will do my 
best to answer any questions you may have as we all seek an 
effective way to organize our government for homeland security. 
Thank you.
    Chairman Lieberman. Thanks very much, Mr. Gross, for 
interesting testimony. Dr. Kamarck, welcome.
    Ms. Kamarck. Thank you very much.
    Chairman Lieberman. It is nice to see you. I was tempted to 
say and I will say that in your work in the last 
administration, you probably earned the public servant's 
equivalent of a Medal of Honor for efforts to reorganize the 
government, so you have an experienced perspective that you 
bring to this new challenge. Thanks for being here.

 TESTIMONY OF DR. ELAINE KAMARCK,\1\ JOHN F. KENNEDY SCHOOL OF 
                 GOVERNMENT, HARVARD UNIVERSITY

    Ms. Kamarck. Thank you, Senator, and it is nice to see you, 
Senator Thompson.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kamarck appears in the Appendix 
on page 120.
---------------------------------------------------------------------------
    Let me start by saying something that I think summarizes 
what we heard this morning, and I just want to point this out. 
Homeland defense is not going to happen in the White House. It 
is not going to happen in the National Security Council, a 
coordinating council. It will not happen in the cabinet room. 
Ask any American who needs to know when there is a threat, who 
do you think will protect you? Some guy who is in the White 
House or a $45,000-a-year employee who is guarding the border? 
And they are going to say it is the latter.
    I think the real importance of this bill, which you should 
be commended for, is to tackle the problem of the border, 
which, as we have heard before, has been long ignored. Let me 
point out that these problems at the border are not new, but 
until September 11, there was never the sense of urgency to 
overcome all the bureaucratic intransigence to creating 
effective border patrol.
    I would make two friendly suggestions to this bill. I would 
consider including the Department of Consular Affairs at the 
State Department in here. Currently, that Department is 
extremely overworked and understaffed. It tends to be manned by 
young diplomats who are trained in diplomacy, not trained in 
law enforcement. They do not have access to real-time 
intelligence, which they need, and, in fact, as Mary Ryan has 
testified before the Senate, they had no relationship with the 
CIA or the FBI on a regular basis before September 11. I do 
hope they do now.
    Chairman Lieberman. Just explain, for the record, what 
these folks do.
    Ms. Kamarck. Consular Affairs officers hand out visas. They 
are our first line of defense at the border. They are generally 
young people, first diplomatic post, who are stationed, say, in 
Beijing. Sometimes they have to see thousands and thousands of 
people a month and they have no training in law enforcement, 
nor do they have the intelligence access that they need. So I 
think this is worth including here.
    Chairman Lieberman. Just for the record, and I will give 
you some extra time, I do not remember every case, but of the 
19 hijacker terrorists who bought the planes in the attacks on 
September 11, almost all of those came in exactly that--that 
was their first point of contact, was it not?
    Ms. Kamarck. Of course. Their first point of contact for 
coming to the United States is getting a visa. That is the 
first point of contact. So if you are going to talk about 
really securing the border, you do have to start there. There 
were actually, of these, by the way, there were two potential 
hijackers who did not get visas to come to the United States, 
so something was working, but obviously not enough.
    The failures of the INS, I do not need to recount here, but 
let me just say that they are not new. During the Iranian 
hostage crisis in 1979, the INS could only track down 9,000 of 
the 50,000 Iranian students who were in the United States, and 
here we are many, many years later, more than 20 years later.
    Customs has, as we have heard, an enormous role in our 
economic well-being of this country, and therefore, if you pass 
nothing else out of this bill, I would urge you to pass the 
acceleration fund for research and development of homeland 
security technologies, because it is very clear that in order 
to keep our trade in good shape and our economy in good shape 
and simultaneously increase our level of security, we are going 
to need some substantial new investments in technology, and I 
think if you could start that right away, it would be great.
    And finally, I would make another suggestion to take the 
newly federalized airline security force out of the 
Transportation Department and include it, along with the Coast 
Guard and the other groups, in this new agency. There is 
absolutely no difference between guarding a land border in 
terms of what you are looking for in security and guarding an 
international airport, and I think if you put these together, 
you have some real very good synergies and the potential for 
some very good reorganization.
    Two quick points. On cyber security, I think this bill is a 
wonderful example of putting some things together. I will say, 
however, that both for your new cyber security agency and for 
the new homeland security agency, do not use the current civil 
service law. Write into this bill its own authority to create a 
new personnel system or, quickly pass Senator Voinovich's civil 
service reform bill. The worst thing we could do would be to 
create a new agency and then saddle it with a civil service 
system that more than 50 percent of the Federal Government has 
already gotten themselves out of because they find it does not 
work for their needs.
    And then finally, on the National Office for Combating 
Terrorism, I am very skeptical. Having worked in the White 
House for 5 years closely with all these agencies, I just do 
not think Congress can ever legislate the internal workings of 
the Executive Branch. I just think it is not a good thing to 
spend your time on, particularly when there are so many other 
things in this bill that are so important. The way this sets 
things up, it conflicts with the office of OMB, it conflicts 
with NSC. I do not think it is good to create a kind of dual-
budget process within the White House when, after all, you have 
to have one budget, the President's budget, for clarity.
    So, as for that portion of the bill, I would say that given 
all the other things that are so important in the bill, I would 
urge that you concentrate on those, particularly on the border 
questions and the cyber security questions, which our 
government is very far behind on, and leave it to each 
President to figure out how they organize their own White 
House.
    Senator I think that if there had been a little difference 
in those ballots in Florida a year ago, you might have been on 
the other side on this one. Thank you very much.
    Chairman Lieberman. You make such overwhelming sense in all 
that you say. [Laughter.]
    Mr. Light, thanks for being here.

  TESTIMONY OF PAUL C. LIGHT,\1\ VICE PRESIDENT AND DIRECTOR, 
     GOVERNMENTAL STUDIES PROGRAM, THE BROOKINGS INSTITUTE

    Mr. Light. It is a delight to be here. I was actually 
sitting up behind you, not you, but Senator Glenn and Senator 
Roth, in 1988 when the Senate Governmental Affairs Committee 
last created a cabinet department. We elevated the Veterans' 
Administration to cabinet status. I do not raise that memory to 
remind you of what a wonderful job we did. I do not know that 
it improved the performance of the VA.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Light appears in the Appendix on 
page 127.
---------------------------------------------------------------------------
    I was also sitting over to your left when we created the 
Deputy Director of OMB for Management, a Senate-confirmed 
position that we hoped would give greater attention and 
visibility to this important job, and now it is mid-April. The 
administration in a vast rapid dash to the finish line has yet 
to submit a nominee for that critical post.
    It is with that kind of sense of sort of the limits of 
reorganization that I get the last word on this panel and in 
this hearing, I suppose.
    I have heard two things today. No. 1 is that organization 
matters. That is a nice thing to hear before the Governmental 
Affairs Committee. Every once in a while, people in Congress 
and in this town recognize that organization matters to program 
effectiveness. Our temptation here in town is always to tinker, 
to exhort, to work with the current system as best we can, to 
adopt the least common denominator approach.
    I am telling you, this is a time for a chain saw on the 
organizational chart of government, and not just at INS and not 
just for homeland security. We have got an organization chart 
that is an utter nightmare, a mess. We have got bill after bill 
introduced in Congress to realign, reorganization. I think we 
have all come to the conclusion that organization matters, and 
it is a very nice thing, given that is what I do for a living, 
not that I would say that the elevation of the Veterans' 
Administration suggests that I did it well or that we did it 
well.
    No. 2, I think, important before this Committee, is that 
accountability matters. That is what we are talking about 
today. Everybody talks about efficiencies and who reports to 
whom, but you know what? At the end of the day, if you are an 
Article I person like I am, you believe that Senate 
confirmation matters and that being able to call a significant 
player in the administration to testify matters.
    I think Governor Ridge should be called to testify. I think 
that he is enough like the Director of OMB, enough like the 
drug czar, enough like the International Trade Representative 
to be called to testify. I do not see a problem with that. I 
see all the maneuvering about getting a situation under which 
he might step into these hallowed halls and sit down before you 
and give you a public briefing, but he controls a lot of money. 
He is at a point now where his success, in a sense, confirms 
the notion that he should be confirmed and invited to testify.
    On your legislation, I believe that the rationale for 
creating a department exists. I think there is plenty of 
history to demonstrate. I mean, we have created cabinet 
departments on the basis of many arguments. They all exist 
here, actually. We can look at the Department of Energy, the 
Department of Transportation, HUD, we can look at Education, 
HEW, the Department of Defense. We created them with the same 
instinct that is on the table here.
    And let me say that you do not have to include every last 
piece of a policy area in order to create a department. That is 
just not a requirement of past cabinet building. If we did 
that, we would have exactly one cabinet department in the 
Federal Government. That is how we would get everything under 
the same tent.
    Second, I believe that statutory authority for the Homeland 
Security Director, Tom Ridge, or whomever it is, is the sine 
qua non of accountability. I think it should be done.
    Third, I argue in my testimony that the organization chart 
is a mess, that we have a moment here before us where we ought 
to take that long look at the organization chart of government, 
take a look at food safety, take a look at bioterrorism, take a 
look at homeland security, take a look at intelligence 
services, take a look at them in a systematic fashion by 
enacting a bill that has been pending before this Committee for 
12 years and is now under the title of the government in the 
21st Century Act.
    I think we ought to take this look. It can be done quickly. 
It can be reported back to Congress within a 12-month period, 
even less. I think if we are going to do a reorganization, let 
us do it well and let us do it in a fashion that forces 
Congress to deal with it up or down through some sort of a 
forced decision mechanism that would require a military base 
closing type of decision.
    I guess that is the last word.
    Chairman Lieberman. It is a good word. We are going to ask 
you a few questions, but thanks, Mr. Light. It is reassuring to 
know that there are a few Article I people out there. 
[Laughter.]
    I appreciate it very much.
    Mr. Gross, let me ask you, if you could from your 
experience, to share an anecdote or two with us so that we can 
get a feel, because very few of us, maybe none of us have 
actually been at the borders to the extent that you have trying 
to move goods, particularly, back and forth.
    Mr. Gross. Sure. And I invite you, with that opening, to 
come to the border, come to San Diego.
    Chairman Lieberman. I might just do that.
    Mr. Gross. The problem is when we have people of your 
stature come to the border, the agencies know they are coming 
so they have their best hat on. They open up all the lines and 
there is never a problem because they know you are coming. We 
need you to come undercover, not know you are coming, put a 
Machiavellian disguise on you and we will show you what really 
happens on a day-to-day basis going on down there.
    The anecdotes are many. You read about some in the press, I 
think, that are probably more accurate than others, but from 
the passengers' side, we have experienced mismanagement. Half 
the lanes are never open. And San Diego is an example. We have 
land ports. We do not have bridges, so we have infrastructure 
to be able to get people across more efficiently with better 
management.
    In Otay Mesa, as an example, there are 14 lines at the 
border at the passenger side. Never more than five or six are 
open, half staffed by Customs, half staffed by INS. They have a 
50/50 responsibility at the primary lanes. Their management has 
to talk together with each other to make the passenger side 
efficient. There is never proper coordination. Again, I think 
the INS guy, because of his training, is looking more for the 
illegal immigrant coming through, whereas the Customs guy is 
looking for the contraband coming through. So there is not 
total cross-training on whether they are looking for contraband 
or when they are processing people.
    Chairman Lieberman. Somebody told me the other day--it was 
actually one of my superb staff members--that there is some 
indication that people who are trying to break the system know 
by the uniform who is going to be looking for what and go to--
--
    Mr. Gross. I have heard that before, because you can tell. 
They have distinct uniforms.
    Chairman Lieberman. People trying to bring contraband in--
--
    Mr. Gross. They will want to find an INS line versus the 
Customs line.
    Chairman Lieberman [continuing]. Find an INS line.
    Mr. Gross. Sure. I would not doubt that would be the case. 
I mean, these are very sophisticated people that are doing bad 
deeds at the border, with drugs or with illegal immigrants. 
There is big money involved and they are very sophisticated. 
They will find a way around the system if it is not secure. If 
there is a breakdown in the system at the border, they are 
going to find it.
    Chairman Lieberman. I take it, then, and you said this, I 
believe, or suggested it, anyway, in your testimony, that you 
would find what the press is reporting, which is that Governor 
Ridge's original proposal for consolidation of the border 
agencies, which has now been reduced to the point of putting 
the Border Patrol and Customs in the Justice Department, not to 
be enough.
    Mr. Gross. Yes. We think the Justice Department is not, 
again, from my testimony, not the right department. We have 
seen at our borders mismanagement issues. I mean, we have seen 
it. It has been well documented about problems with the Justice 
Department and INS. We have seen, in my opinion, and let me 
state this is my opinion, that at least where I am involved, 
Customs does a much better job of management at the ports than 
INS does, and that is going out on a bold statement. I am going 
to hear from them, I am sure. [Laughter.]
    That is my opinion.
    Chairman Lieberman. I will say, your boldness has been 
echoed.
    Dr. Kamarck, did you want to add something on that?
    Ms. Kamarck. Yes. Can I add, that was very troubling to me 
when I heard that they were going to put this in the Justice 
Department.
    Chairman Lieberman. Right.
    Ms. Kamarck. That would be such a terrible mistake. It 
would undermine--if even a piece of this bill ended up in the 
Justice Department, it would really undermine it. If any 
version of this ends up in the Justice Department, you run a 
significant risk that the flawed management structure that has 
run INS now for several decades would, in fact, then be running 
a new agency.
    Customs has a much better track record in reform, in using 
technology, etc., and so I would heartily say, put it in 
Customs if you have to do that, but keep it away from the 
Justice Department.
    Chairman Lieberman. How do you react to Senator Gregg's 
proposal, which is to say to create a separate, if I understood 
him correctly, a separate border agency in lieu of both the 
smaller step that seems to be coming along in the 
administration and the larger agency that we proposed?
    Ms. Kamarck. I think that would still help, but I think 
that it is better to go the route you have proposed because I 
think it gives it more clout. It is more inclusive. You would 
get more synergies from the technology and from cross-training. 
Everyone would be trained in one area.
    There is a huge problem facing this entire enterprise, 
which is the economic problem, and I do not think that a sort 
of subsidiary Border Patrol agency would have the ability to 
get what it needed from Congress, etc. So I think you are right 
in making it a cabinet-level agency.
    Chairman Lieberman. Mr. Destler.
    Mr. Destler. I just wanted to emphasize, to generalize a 
point that Dr. Kamarck made on border security, that all these 
units that are to be brought in are not, or have not been 
before September 11, priority units in their departments. The 
Coast Guard is not the prime business of the Department of 
Transportation. The Customs Service is not the prime business 
of Treasury. INS is not the prime business of the Justice 
Department, etc. The cabinet members do not pay attention to 
them. They pay some attention to them now because homeland 
security is such a big thing, but there is not a strong 
argument for the status quo based on these agencies' 
connections to the mainstream of their departments.
    Transportation security is slightly different in that it is 
a new unit and obviously the Secretary of Transportation is 
paying enormous attention to it and they seem to be doing 
fairly well. But there is a real tension between having 
security in an agency whose main job is the promotion of 
transportation, so we also think it makes sense to put that in 
a border agency, as well.
    Chairman Lieberman. Mr. Light.
    Mr. Light. I am spending a lot of time right now looking at 
the Transportation Security Administration, and I will tell you 
something, you move that agency right now at this particular 
moment in time and you set it back 12 to 18 months.
    Chairman Lieberman. Why?
    Mr. Light. It is just such a hard job. They have some 
momentum now. They are setting up policies and procedures. The 
deputy secretary is completely and totally engaged in making 
that TSA a reality. I just think if you move it someplace else, 
you lose that momentum. You just do. I mean, just finding the 
office space and getting the hiring criteria in place, I just 
think 12, 18 months from now, maybe. But right now, it would 
disrupt motion, I think, very seriously.
    Chairman Lieberman. A final question. What about the law 
enforcement functions of the Immigration and Naturalization 
Service? Some have suggested they be brought into this agency. 
Others have said that it should not be separated out from other 
functions in the INS. Any opinions on that?
    Ms. Kamarck. I think the naturalization functions should 
definitely be kept in the Justice Department. I think they are 
fundamentally different and the administration even has a bill 
that would simply do that.
    I think that then you have to look carefully at the 
enforcement functions, their relationship to the border, their 
relationship to security. My guess is probably most of them 
should go into this new agency, but I do not have a real firm 
opinion on that, except to say naturalization should definitely 
stay in the Justice Department.
    Chairman Lieberman. Yes, Mr. Gross?
    Mr. Gross. I think I would agree with Dr. Kamarck on that. 
The enforcement agencies, we believe strongly should be part of 
this new agency, any enforcement agency, and they should have 
the same law enforcement status.
    One of the practical problems that we have seen at the 
border is, and I think it is documented, one of the problems is 
the resources. They are not able to recruit new Border Patrol 
agents and new INS agents quickly enough and there is a lot of 
looking around for these people. Once they get hired and 
trained, which takes 6 to 12 months, they are jumping. They are 
jumping to where they can get law enforcement status, better 
pay, and better benefits. They are jumping to the Customs 
Service. Half of them jumped to the sky marshal program as soon 
as recruitment was escalated--because it was a much better 
status for them. Now, they are having to rehire again.
    So the retention is a big problem at these agencies, 
because even though they are all working on the border, there 
are different pay scales and there are different levels and 
that is another big problem we have at the ports of entry.
    Mr. Light. May I add a word?
    Chairman Lieberman. Yes.
    Mr. Light. I think if ever there were a reason for taking a 
chain saw to an agency, INS presents it. You must divide that 
agency. I mean, the question to you is, how is it doing where 
it currently is?
    Chairman Lieberman. Right.
    Mr. Light. How well is that agency running? You have got to 
do something radical to INS in order to give it the wake-up 
call. I just think that is one where the argument is quite 
different from TSA. This is one where this agency just is going 
nowhere unless you do something radical.
    Chairman Lieberman. I think there is a lot of sentiment 
here on the Hill that agrees with you. We will see about INS, 
see what happens and how quickly. Senator Thompson.
    Senator Thompson. Thank you, Mr. Chairman.
    I want to get back to ask some of you what you think about 
a couple of comments that Mr. Destler made about having to do 
with getting a strategy first. We are talking about what agency 
goes where, how the boxes should be rearranged. We are never 
going to get a consensus on that, for sure, and we do not need 
to endlessly debate this. But on the other hand, we have got 
supposedly a strategy document coming out.
    I know GAO says that it took the Drug Control Office 10 
years to come up with a national strategy, and we are not going 
to wait 10 years, hopefully, or anything close to that. But 
that just goes to show how difficult it is deciding really what 
we need to do. I mean, we are looking at all of government. We 
ought to be looking at all of government. We have got 45 or 50 
different entities out there, agencies, what not, participating 
in all this.
    Do we know enough to decide at this point exactly where the 
boxes ought to go or how we need to reorganize. How significant 
will this comprehensive national strategy that the 
administration is putting together be in that?
    Dr. Kamarck, do you have any thoughts on that?
    Ms. Kamarck. Yes, I do. I do think that Tom Ridge's role 
should not be operational. I do not believe White House offices 
are ever effective if they are operational. I think there is, 
in fact, a long history of White House disasters when they try 
to be operational.
    Ridge's office should be--and I think they are doing this--
should be developing a strategy that is comprehensive, because 
even the provisions in this bill are only a small piece of what 
needs to happen overall in the government. We have not even 
talked about CDC reform or any of the other pieces.
    Senator Thompson. Or intelligence, as you pointed out.
    Ms. Kamarck. Or intelligence reform----
    Senator Thompson. Which is a key part.
    Ms. Kamarck. Right, a key part. However, I do think that 
when things like this happen, there is a coalescence around 
government problems that everybody has known about for a long 
time and that is why I think you hear so much unanimity in here 
about the border. In other words, before September 11, people 
made the same criticisms of the border problem as they are 
making now. Now, we have, however, a much more important reason 
to pursue those.
    So while I agree with the need for a national strategy, I 
do think there are pieces of this that people who have been in 
government a long time and studied it are ready to go forward 
with, and hopefully in July, a Border Patrol agency will be 
part of this national strategy, but hopefully there will be a 
lot of other things, including some intelligence agency reform, 
too.
    Senator Thompson. Perhaps we need to take advantage, 
frankly, of the political momentum that we ought to be having 
right now. I assume that the worst national disaster we have 
ever had will not be sufficient enough to reorganize 
government. It is going to take something more than that, I 
assume. [Laughter.]
    As you point out, there are some things that we can do that 
we have known for a long time. It is just a matter of attention 
and momentum, which perhaps we have now that we have not had 
before. We can do some things though we may not be able to do 
everything.
    Another kind of corollary to that, I guess, is a question 
having to do with the fact that regardless of what kind of 
entity we come up with, it seems that some very important parts 
are going to be left out of the tent. Intelligence comes to 
mind. Everything gets back to that. We know how deficient we 
are there and how much better we have to do.
    We have to figure out how we communicate, how the FBI 
counterintelligence, for example, and the CIA communicates with 
these entities. They do not like to talk to anybody, even among 
themselves. So now we are asking them to figure out a way to 
communicate with governmental entities that have nothing to do 
traditionally with these other problems.
    So how significant is it? I mean, one could make the case, 
because of that, perhaps we ought to fall back and have this 
entity just be a coordinator. How significant a problem is it, 
if you see it a problem, if we create something new, a very 
important part of the picture is necessarily going to be left 
out? Did you want to comment further on that?
    Mr. Destler. Yes. Our sense is that certain things are 
moving, though they may not be perfect. The Homeland Security 
Council is not perfect, but Governor Ridge is moving. He has a 
head of steam. He has a mandate. He has had a budget role. He 
does have an interagency process working. And so the logical 
thing to do right now is to build upon this and to resist the 
wrong-headed administration desire to deny him a role with 
Congress. But we do not favor radical change.
    The situation is not perfect. There are signs Governor 
Ridge is losing battles. But he could be reinforced by this 
Committee along the lines prepared in our testimony.
    We also believe that when you look at the border, you have 
functions that by their logic seem to belong together. They 
have the same purpose. As Dr. Kamarck suggested, you also have 
a history of problems. And so there seems to be a very strong 
sense for pulling these together.
    Beyond this, you get into gray areas. For example, most of 
the homeland security department bills, including yours and 
including the Hart-Rudman recommendations, include FEMA in a 
united agency. We would not include FEMA because we think they 
are basically doing something different, responding to 
catastrophic events. Now, somebody might do a study here and 
prove us wrong. They might prove that there are important 
synergies in putting FEMA together with the border agencies, 
say.
    But our sense from looking at it is that you try to look 
for groupings with closely-linked functions, and the border 
agencies are a particularly clear case where the linkage is 
logical and the current location is not. The Coast Guard, for 
example, has bounced around in various places, and the 
Department of Transportation is as comfortable a place as any 
for a good agency that----
    Senator Thompson. Did anyone else have any comment on that?
    [No response.]
    Senator Thompson. I guess, finally, I especially took note 
of your comments about research and development, Ms. Kamarck. 
That seems to be the first place people cut and the most----
    Ms. Kamarck. I know, and it is----
    Senator Thompson. Is that your experience?
    Ms. Kamarck. That is my experience. The first place people 
cut is the development side and we cannot solve this problem 
without that. We cannot solve this problem at the border 
without significant new technology. People are talking about 
biometrics and all of this stuff. Well, you know, we are facing 
this sort of terrible choice. We can make our borders really 
secure and stop all trade, right? Nobody wants to do that, so 
the technology is the only answer to that. So that is why I 
said in my written testimony and here is that if you do nothing 
else, I would do that first and try to get some of that 
technology in development and in testing, etc., so that we can 
improve the situation.
    Senator Thompson. Some of these agents are still filling 
out forms by hand.
    Ms. Kamarck. Well, INS is--going back to my comment about 
why you cannot put this in the Justice Department, INS has a 
history of not being able to implement technology that you guys 
in Congress have given them and funded them.
    Senator Thompson. That is a government-wide problem, as you 
probably know, too.
    Ms. Kamarck. That is right.
    Senator Thompson. We have an abysmal record. We have wasted 
billions of dollars trying to integrate information technology 
into these various departments. IRS is a classic example. They 
are constantly high-profile. INS has not been that high-profile 
up until recently.
    Mr. Light. May I add a last word of encouragement?
    Chairman Lieberman. You are actually going to get the last 
word.
    Mr. Light. If you look back at the 1988 Department of 
Veterans' Affairs Act, you will see that the final title in the 
Act, as a price of passage by this Committee and by the 
Senate--that bill came over from the House--was the creation of 
a comprehensive look at the overall organization of government. 
It was enacted by the Senate. It was enacted by the House and 
signed by the President. It carried a trigger that allowed 
the----
    Senator Thompson. The next President to do away with it.
    Mr. Light [continuing]. The next President to do away with 
it, and our colleague, one of Dr. Kamarck's colleagues, Dick 
Darman, among the very first decisions he made as Budget 
Director was, no way am I going to have such a thing on my 
watch. If we had done such a thing on his watch, I will tell 
you something, we would have the road map right now that we 
need to do exactly what this Committee wants to do. Maybe that 
is the last title, maybe that is the fourth title of this 
legislation.
    Chairman Lieberman. That is a nice suggestion to end on. I 
thank you all. You have been, both in your written testimony 
and in your oral testimony and response to the questions, you 
have been very helpful.
    This has been, I think, a constructive hearing. I have 
learned from it and I have a renewed sense of urgency that we 
should go to markup as quickly as we can and get done what we 
can, because this is an urgent problem every day and then try 
to meet up with the administration and actually provide for 
better homeland security. Thank you very much.
    We will keep the record of the hearing open for a week in 
case you want to add any comments, other Members want to ask 
you questions. I would ask each of you, because you bring 
extraordinary experience and knowledge here, to stay tuned to 
what we are doing and I invite your comments and responses and 
suggestions as we go on. Thank you very much.
    The hearing is adjourned.
    [Whereupon, at 12:08 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T9889.001

[GRAPHIC] [TIFF OMITTED] T9889.002

[GRAPHIC] [TIFF OMITTED] T9889.003

[GRAPHIC] [TIFF OMITTED] T9889.004

[GRAPHIC] [TIFF OMITTED] T9889.005

[GRAPHIC] [TIFF OMITTED] T9889.006

[GRAPHIC] [TIFF OMITTED] T9889.007

[GRAPHIC] [TIFF OMITTED] T9889.008

[GRAPHIC] [TIFF OMITTED] T9889.009

[GRAPHIC] [TIFF OMITTED] T9889.010

[GRAPHIC] [TIFF OMITTED] T9889.011

[GRAPHIC] [TIFF OMITTED] T9889.012

[GRAPHIC] [TIFF OMITTED] T9889.013

[GRAPHIC] [TIFF OMITTED] T9889.014

[GRAPHIC] [TIFF OMITTED] T9889.015

[GRAPHIC] [TIFF OMITTED] T9889.016

[GRAPHIC] [TIFF OMITTED] T9889.017

[GRAPHIC] [TIFF OMITTED] T9889.018

[GRAPHIC] [TIFF OMITTED] T9889.019

[GRAPHIC] [TIFF OMITTED] T9889.020

[GRAPHIC] [TIFF OMITTED] T9889.021

[GRAPHIC] [TIFF OMITTED] T9889.022

[GRAPHIC] [TIFF OMITTED] T9889.023

[GRAPHIC] [TIFF OMITTED] T9889.024

[GRAPHIC] [TIFF OMITTED] T9889.025

[GRAPHIC] [TIFF OMITTED] T9889.026

[GRAPHIC] [TIFF OMITTED] T9889.027

[GRAPHIC] [TIFF OMITTED] T9889.028

[GRAPHIC] [TIFF OMITTED] T9889.029

[GRAPHIC] [TIFF OMITTED] T9889.030

[GRAPHIC] [TIFF OMITTED] T9889.031

[GRAPHIC] [TIFF OMITTED] T9889.032

[GRAPHIC] [TIFF OMITTED] T9889.033

[GRAPHIC] [TIFF OMITTED] T9889.034

[GRAPHIC] [TIFF OMITTED] T9889.035

[GRAPHIC] [TIFF OMITTED] T9889.036

[GRAPHIC] [TIFF OMITTED] T9889.037

[GRAPHIC] [TIFF OMITTED] T9889.038

[GRAPHIC] [TIFF OMITTED] T9889.039

[GRAPHIC] [TIFF OMITTED] T9889.040

[GRAPHIC] [TIFF OMITTED] T9889.041

[GRAPHIC] [TIFF OMITTED] T9889.042

[GRAPHIC] [TIFF OMITTED] T9889.043

[GRAPHIC] [TIFF OMITTED] T9889.044

[GRAPHIC] [TIFF OMITTED] T9889.045

[GRAPHIC] [TIFF OMITTED] T9889.046

[GRAPHIC] [TIFF OMITTED] T9889.047

[GRAPHIC] [TIFF OMITTED] T9889.048

[GRAPHIC] [TIFF OMITTED] T9889.049

[GRAPHIC] [TIFF OMITTED] T9889.050

[GRAPHIC] [TIFF OMITTED] T9889.051

[GRAPHIC] [TIFF OMITTED] T9889.052

[GRAPHIC] [TIFF OMITTED] T9889.053

[GRAPHIC] [TIFF OMITTED] T9889.054

[GRAPHIC] [TIFF OMITTED] T9889.055

[GRAPHIC] [TIFF OMITTED] T9889.056

[GRAPHIC] [TIFF OMITTED] T9889.057

[GRAPHIC] [TIFF OMITTED] T9889.058

[GRAPHIC] [TIFF OMITTED] T9889.059

[GRAPHIC] [TIFF OMITTED] T9889.060

[GRAPHIC] [TIFF OMITTED] T9889.061

[GRAPHIC] [TIFF OMITTED] T9889.062

[GRAPHIC] [TIFF OMITTED] T9889.063

[GRAPHIC] [TIFF OMITTED] T9889.064

[GRAPHIC] [TIFF OMITTED] T9889.065

[GRAPHIC] [TIFF OMITTED] T9889.066

[GRAPHIC] [TIFF OMITTED] T9889.067

[GRAPHIC] [TIFF OMITTED] T9889.068

[GRAPHIC] [TIFF OMITTED] T9889.069

[GRAPHIC] [TIFF OMITTED] T9889.070

[GRAPHIC] [TIFF OMITTED] T9889.071

[GRAPHIC] [TIFF OMITTED] T9889.072

[GRAPHIC] [TIFF OMITTED] T9889.073

[GRAPHIC] [TIFF OMITTED] T9889.074

[GRAPHIC] [TIFF OMITTED] T9889.075

[GRAPHIC] [TIFF OMITTED] T9889.076

[GRAPHIC] [TIFF OMITTED] T9889.077

[GRAPHIC] [TIFF OMITTED] T9889.078

[GRAPHIC] [TIFF OMITTED] T9889.079

[GRAPHIC] [TIFF OMITTED] T9889.080

[GRAPHIC] [TIFF OMITTED] T9889.081

[GRAPHIC] [TIFF OMITTED] T9889.082

[GRAPHIC] [TIFF OMITTED] T9889.083

                                   - 

</pre></body></html>
